<html>
<title> - A GLOBAL BATTLEGROUND: THE FIGHT AGAINST ISLAMIST EXTREMISM AT HOME AND ABROAD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                    A GLOBAL BATTLEGROUND: THE FIGHT AGAINST 
                     ISLAMIST EXTREMISM AT HOME AND ABROAD

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-11

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-886 PDF              WASHINGTON : 2015                    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8c9b84ab889e989f838e879bc5888486c5">[email&#160;protected]</a>  
                               
                               
                               
                               
                               
                               
                               
 
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Vacancy
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Hon. Newt Gingrich, Former Speaker of the U.S. House of 
  Representatives:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Gen. Michael V. Hayden, (USAF-Ret.), Former Director, Central 
  Intelligence Agency, and Former Director, National Security 
  Agency:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Philip Mudd, Senior Fellow, New America Foundation:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Brian Michael Jenkins, Senior Adviser to the RAND President, 
  The RAND Corporation:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19


A GLOBAL BATTLEGROUND: THE FIGHT AGAINST ISLAMIST EXTREMISM AT HOME AND 
                                 ABROAD

                              ----------                              


                        Tuesday, March 24, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:38 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Perry, Katko, 
Hurd, Carter, Walker, Loudermilk, McSally, Ratcliffe, Thompson, 
Jackson Lee, Higgins, Richmond, Keating, Vela, Watson Coleman, 
and Rice.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    Before we start, I would like to take a moment of silence 
out of respect for the 150 victims of the German airline crash 
today in the French Alps.
    We send our deepest condolences to their families and to 
our allies as they deal with this tragedy.
    I now recognize myself for an opening statement.
    The committee is meeting today to hear testimony on the 
global war against Islamist terror. Before 9/11 we failed to 
recognize this threat when it was right before our eyes. This 
failure brought us into war with violent Islamist extremism, 
the perversion of a religion into a deeply insidious worldview. 
Any attempt to deny the ideological underpinnings of the threat 
endangers our security.
    Throughout history we have seen power vacuums filled by 
violent groups, deranged dictators, and extremist ideologies. 
Nowhere is this more evident than with the rise of Islamist 
terror groups, which have spread like wildfire on this 
President's watch because of two glaring leadership failures.
    The first failure was the President's decision to spin a 
false narrative. The White House proclaimed our fight was 
against core al-Qaeda and that that group was on the path to 
defeat. In reality, the Jihadist threat had metastasized. The 
President refused to characterize the Fort Hood and Boston 
Marathon attacks for what they were--acts of brutal Islamist 
terrorism.
    The second leadership failure was the President's decision 
to dismantle America's counterterrorism policies and return to 
a pre- 
9/11 law enforcement posture. The President tried to close 
Guantanamo Bay and release hardened terrorists, sought to give 
terrorists the same legal protections as U.S. citizens, 
negotiated and swapped hostages with terrorists, and failed to 
prevent the rise of ISIS and the emergence of al-Qaeda 
sanctuaries.
    A year after the President called ISIS the JV team, the 
organization could draw on over 20,000 foreign fighters and has 
been linked to 29 terrorist plots or attacks targeting the 
West. What I thought was interesting: The day the President 
said the global war on terror was effectively over was the day 
that al-Baghdadi created ISIS.
    ISIS now controls territory the size of Belgium, governs 
millions of people, draws on billions of dollars in revenue, 
and commands tens of thousands of foot-soldiers. Terrorist safe 
havens have spread across the Middle East and Northern Africa. 
Last week, ISIS claimed responsibility for the terror attack in 
the museum in Tunisia. The gunmen involved had received 
training in Libyan terror camps.
    ISIS also claimed responsibility for the horrific attacks 
on mosques in Yemen, which killed more than 150 people. Yemen's 
instability has led to the evacuation of our remaining forces 
and will further empower extremists. This situation is 
alarming, given that al-Qaeda's premier bomb-makers in AQAP 
have been targeting the homeland and Western interests for 
years.
    Over the past year, Islamist terrorists have struck Western 
cities, including Paris, Sydney, Ottawa, Copenhagen, and 
Brussels. We have witnessed the reach of extremists here at 
home, as well. An Ohio-based ISIS sympathizer was arrested in 
January for plotting to attack the United States Capitol.
    Last week, an ISIS-aligned hacking group posted the names, 
photos, and addresses of 100 American service members, calling 
their brothers residing in America to attack these individuals.
    At the other end of the Islamist extremist spectrum we face 
Iran, the world's leading state sponsor of terrorism, 
responsible for killing Americans for more than 3 decades.
    In 2011 it attempted to assassinate the Saudi Arabian 
ambassador in what would have been a mass-casualty attack here 
in Washington.
    The Iranian regime is on the march, destabilizing the 
Middle East and stoking sectarian conflict. Yet this 
administration has given up on rolling back Iran's nuclear 
threat, and it continually fails to recognize the regime as 
part of the radical Islamist threat. As Prime Minister 
Netanyahu said before this Congress, ``Iran and ISIS are 
competing for the crown of militant Islam.''
    We continue to face dual threats here at home, foreign 
fighters and home-grown terrorism. More than 180 Americans have 
tried or succeeded in joining extremists in Syria and Iraq, 
along with 3,000 to 5,000 other Westerners with visa-free 
access to the United States. Armed with military training and 
terrorist connections, these individuals are only a plane 
flight away.
    Islamist radicals are also tailoring their hateful ideology 
toward Western audiences on social media and recruiting home-
grown fanatics. The easy transmission of extremist propaganda 
on the internet has elevated the threat to the homeland. For 
example, there have been at least 97 home-grown terror plots or 
attacks in the United States since 9/11, and more than three-
fourths of them have taken place in the past 5 years.
    The rise of radicalism we are witnessing today is not just 
a passing phenomenon. The war against Islamist terror will be 
the great struggle of our lifetime, the great struggle of this 
century, and I believe we have a moral and strategic obligation 
to fight it with all tools at our disposal.
    Just as Communism and fascism before it, Islamic extremism 
is a cancer that must be destroyed. To blunt their progress we 
can begin by coalescing around a comprehensive strategy to wipe 
out these Jihadists and their twisted ideologies.
    Our purposes should be clear. It must be the policy of the 
United States to confront and defeat Islamist terror groups 
wherever they are, and prevent their reemergence in order to 
ensure the long-term security of the United States and our 
allies.
    I look forward to hearing from the distinguished witnesses 
we have here today, including the former Speaker of the House, 
Mr. Gingrich.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 24, 2015
    Before 9/11, we failed to recognize the threat when it was right 
before our eyes. This failure brought us into war with violent Islamist 
extremism--the perversion of a religion into a deeply insidious 
worldview. Any attempt to deny the ideological underpinnings of the 
threat endangers our security.
    Throughout history, we have seen power vacuums filled by violent 
groups, deranged dictators, and extremist ideologies. Nowhere is this 
more evident than with the rise of Islamist terror groups, which have 
spread like wildfire on this President's watch because of two glaring 
leadership failures.
    The first failure was the President's decision to spin a false 
narrative. The White House proclaimed our fight was against ``core'' 
al-Qaeda and that the group was ``on the path to defeat.'' In reality, 
the jihadist threat had metastasized. The President refused to 
characterize the Ft. Hood and Boston Marathon attacks for what they 
were--acts of brutal Islamist terrorism.
    The second leadership failure was the President's decision to 
dismantle America's counterterrorism policies and return to a pre-9/11 
law-enforcement posture. The President tried to close Guantanamo Bay 
and release hardened terrorists; sought to give terrorists the same 
legal protections as U.S. citizens; negotiated and swapped hostages 
with terrorists; and failed to prevent the rise of ISIS and the 
emergence of al-Qaeda sanctuaries.
    A year after the President called ISIS the ``JV team,'' the 
organization can draw on over 20,000 foreign fighters and has been 
linked to 29 terrorist plots or attacks targeting the West. And the day 
the President said the global war on terror was effectively over was 
the day al Baghdadi created ISIS. ISIS now controls territory the size 
of Belgium, governs millions of people, draws on billions of dollars in 
revenue, and commands tens of thousands of foot soldiers.
    Terrorist safe havens have spread across the Middle East and North 
Africa. Last week, ISIS claimed responsibility for the terror attack in 
a museum in Tunisia; the gunmen involved had received training in 
Libyan terror camps. ISIS also claimed responsibility for the horrific 
attacks on mosques in Yemen which killed more than 150 people. Yemen's 
instability has led to the evacuation of our remaining forces and will 
further empower extremists. This situation is alarming given that al-
Qaeda's premier bomb-makers in AQAP have been targeting the homeland 
and Western interests for years.
    Over the past year, Islamist terrorists have struck Western cities, 
including Paris, Sydney, Ottawa, Copenhagen, and Brussels. We have 
witnessed the reach of extremists here at home as well. An Ohio-based 
ISIS sympathizer was arrested in January for plotting to attack the 
U.S. Capitol. Last week, an ISIS-aligned hacking group posted the 
names, photos, and addresses of 100 American service members, calling 
their ``brothers residing in America'' to attack these individuals.
    At the other end of the Islamist extremist spectrum, we face Iran, 
the world's leading state sponsor of terrorism responsible for killing 
Americans for more than three decades. In 2011, it attempted to 
assassinate the Saudi Arabian ambassador in what would have been a 
mass-casualty attack here in Washington.
    The Iranian regime is on the march, destabilizing the Middle East 
and stoking sectarian conflict. Yet this administration has given up on 
rolling back Iran's nuclear threat and it continually fails to 
recognize the regime as part of the radical Islamist threat. As Israeli 
Prime Minister Netanyahu said before Congress, ``Iran and ISIS are 
competing for the crown of militant Islam.''
    We continue to face ``dual threats'' here at home: Foreign fighters 
and home-grown terrorism. More than 180 Americans have tried or 
succeeded in joining extremists in Syria and Iraq along with 3,000-
5,000 other Westerners with visa-free access to the United States. 
Armed with military training and terrorist connections, these 
individuals are only a plane flight away.
    Islamist radicals are also tailoring their hateful ideology toward 
Western audiences on social media and recruiting home-grown fanatics. 
The easy transmission of extremist propaganda on the internet has 
elevated the threat to the homeland. For example, there have been at 
least 97 home-grown terror plots or attacks in the United States since 
9/11--and more than three-fourths of them have taken place in the past 
5 years.
    The rise of radicalism we are witnessing today is not just a 
passing phenomenon. The War against Islamist Terror will be the great 
struggle our lifetime, the great struggle of this century, and I 
believe we have a moral and strategic obligation to fight it with all 
tools at our disposal. Just as communism and fascism before it, 
Islamist extremism is a cancer that must be destroyed.
    To blunt their progress, we can begin by coalescing around a 
comprehensive strategy to wipe out these jihadists and their twisted 
ideology. Our purpose should be clear: It must be the policy of the 
United States to confront and defeat Islamist terror groups wherever 
they are and prevent their reemergence in order to ensure the long-term 
security of the United States and our allies.

    Chairman McCaul. With that, I recognize the Ranking Member.
    Mr. Thompson. I want to thank the Chairman for holding 
today's hearing. I would also like to welcome Speaker Gingrich 
back to the House and thank Mr. Jenkins and Mr. Mudd for 
appearing today.
    I am also looking forward to General Hayden's testimony. 
General Hayden, as you know, over the weekend the United States 
pulled its remaining personnel out of Yemen due to a dire 
security situation in that country. There have been some who 
criticized the decision to pull out of Yemen, claiming that 
pulling out of Yemen in the interest of security puts other 
foreign intelligence at risk.
    I want to learn from you when it is appropriate to leave 
our public servants in a dangerous situation in the interest of 
gathering more intelligence.
    This hearing is the latest in a series of committee 
activities relating to combating ideological extremism. Last 
month, the Chairman and I announced a bipartisan task force on 
the threat from foreign fighters. That task force commenced its 
work on March 2.
    In last month's full committee hearing on the threat from 
foreign fighters, the director of the National Counterterrorism 
Center, Nicholas Rasmussen, stated that more work remains to 
ensure that our foreign partners are willing and able to 
identify and stop foreign fighters at their borders. I look 
forward to the task force's recommendation.
    Also the committee Democrats have also asked the Government 
Accountability Office to look into the Obama's administration's 
counter violent extremism strategy. Further, it is my 
understanding that the Majority staff is doing an examination 
of the strategy.
    Mr. Chairman, as we continue to examine the threat from 
home-grown terrorism, it is my hope that in the future we hold 
a hearing to learn from the administration how its strategy 
empowering local partners to prevent violent extremism will be 
helpful. While I understand that the White House held a summit 
last month on violent extremism, this strategy has been in 
place since 2011. It is past time that Members hear from the 
administration on this topic.
    Threats from foreign and domestic terrorist groups are not 
going away overnight. For years we have seen how terrorist 
groups use the internet and social media to recruit new members 
and spread their ideology. It is not surprising that social 
media is being used to espouse messages of fear and terror, to 
cultivate extreme viewpoints and inspire terrorists.
    These outlets are inexpensive and far-reaching, enabling 
any extremist group to take advantage of them. A quick search 
of the internet can produce content from extremists of all 
stripes, from neo-Nazis to ISIL sympathizers to those who have 
pledged allegiance to al-Qaeda. Last month Director Rasmussen 
also stated that ISIL's exploitation of social media played a 
prominent role in the group's ability to recruit fighters from 
around the world.
    As we find ways to counter terrorist messages at home, we 
do not focus on one specific ethnic, age, religious, or gender 
group. The range of indictments and prosecutions from the 
Department of Justice, from last week's indictment of a 47-
year-old Air Force veteran to the indictment of a 21-year-old 
man from Southern California, to the sentencing of a 19-year-
old girl from Colorado to the sentencing of a 44-year-old man 
from North Carolina illustrates that the number of Americans 
seeking association with ISIL is diverse.
    Mr. Chairman, an unfortunate reality we know all too well 
but do not want to face is a successful lone-wolf attack 
inspired by a terrorist group on American soil. I want to build 
upon the work that we are already doing and encourage this 
committee to continue the serious discussions on ways to 
counter message while protecting innovations and Constitutional 
rights. As we consider this threat, we also need to understand 
how we may use social media to defuse rather than incite.
    I look forward to hearing from our witnesses today, and I 
yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 24, 2015
    Over the weekend, the United States pulled its remaining personnel 
out of Yemen due to a dire security situation in that country. There 
have been some who have criticized the decision to pull out of Yemen 
claiming that pulling out of Yemen in the interest of security puts our 
foreign intelligence at risk. I want to learn from General Hayden when 
it is appropriate to leave our public servants in a dangerous situation 
in the interest of gathering more intelligence.
    This hearing is the latest in a series of committee activities 
related to combating ideological extremism. Last month, the Chairman 
and I announced a bi-partisan task force on the threat from foreign 
fighters. That task force commenced its work on March 2.
    In last month's full committee hearing on the threat from foreign 
fighters, the director of the National Counterterrorism Center, 
Nicholas Rasmussen, stated that more work remains to ensure that our 
foreign partners are willing and able to identify and stop foreign 
fighters at their borders. I look forward to the task force's 
recommendations. Also, the committee Democrats have also asked the 
Government Accountability Office to look into the Obama 
administration's Counter Violent Extremism Strategy.
    Further, it is my understanding that the Majority staff is doing an 
examination of the strategy. As we continue to examine the threat from 
home-grown terrorism, it is my hope that in the future we hold a 
hearing to learn from the administration how its strategy, ``Empowering 
Local Partners to Prevent Violent Extremism'', will be helpful. While I 
understand that the White House held a summit last month on violent 
extremism, this strategy has been in place since 2011. It is past time 
that Members hear from the administration on this topic.
    Threats from foreign and domestic terrorist groups are not going 
away overnight. For years, we have seen how terrorist groups use the 
internet and social media to recruit new members and spread their 
ideology. It is not surprising that social media is being used to 
espouse messages of fear and terror; to cultivate extreme viewpoints; 
and to inspire terrorists. These outlets are inexpensive and far-
reaching, enabling any extremist group to take advantage of them.
    A quick search of the internet can produce content from extremists 
of all stripes--from Neo Nazis to ISIL sympathizers to those who have 
pledged allegiance to al-Qaeda. Last month, Director Rasmussen also 
stated that ISIL's exploitation of social media played a prominent role 
in the group's ability to recruit fighters from around the world. As we 
find ways to counter the terrorist's messages at home, we do not focus 
on one specific ethnic, age, religious, or gender group.
    The range of indictments and prosecutions from the Department of 
Justice--from last week's indictment of a 47-year-old Air Force veteran 
to the indictment of a 21-year-old man from Southern California to the 
sentencing of a 19-year-old girl from Colorado to sentencing of a 44-
year-old man from North Carolina--illustrates that the number of 
Americans seeking association with ISIL is diverse. None of the people 
that the Department of Justice has charged with providing material 
support to ISIL has been charged with plotting an attack in the United 
States.
    An unfortunate reality we know all too well, but do not want to 
face, is a successful lone-wolf attack inspired by a terrorist group on 
American soil. I want to build upon the work that we are already doing 
and encourage this committee to continue the serious discussions on 
ways to countermessage while protecting innovation and Constitutional 
rights. As we consider this real threat, we also need to understand how 
we may use social media to diffuse rather than incite.

    Chairman McCaul. Thank the Ranking Member. Other Members 
are reminded that statements may be submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             March 24, 2015
    I thank Chairman McCaul and Ranking Member Thompson for holding 
this morning's hearing on ``A Global Battlefield: The Fight Against 
Islamist Extremism at Home and Abroad.''
    I welcome and thank today's witnesses: The Honorable Newt Gingrich, 
former Speaker of the U.S. House of Representatives; General Michael 
Hayden (USAF-Ret.) the former director of the Central Intelligence 
Agency as well as the former director of the National Security Agency; 
Mr. Philip Mudd, senior fellow, New America Foundation; and Mr. Brian 
Michael Jenkins, a senior adviser to the RAND President of The RAND 
Corporation.
    As a senior Member of this committee and former chair of the 
Homeland Security's Subcommittee on Transportation Security my 
commitment to air travel security and protecting the homeland from 
terrorist attacks remains unwavering.
    Since September 11, 2001, it has been a priority of this Nation to 
prevent terrorists or those who would do Americans harm from boarding 
flights whether they are domestic or international.
    To succeed in the fight against violent extremism defined by the 
actions of ISIS/ISIL and Boko Haram we must use every asset available 
to stop the spread of the violence they perpetrate as well as their 
ability to find safe havens in areas where Government authority is not 
enforced or consistent.
    The battle against violent extremism is constantly changing and it 
is good to see in General Hayden's testimony that reality.
    In recent days we have seen the conditions in Yemen fall into chaos 
as violent extremism-inspired attacks have claimed the lives of 
hundreds of worshipers attending prayer services at Mosques.
    General Hayden's assessment that no one should second-guess 
decisions of military leaders and the President to withdraw troops from 
Yemen because they are in the best position to know all of the facts is 
correct.
    Today's witnesses testify that we are in a new era of geo-political 
conflict.
    It is no longer a matter of governments fielding armies or 
combatants--but the emergence of what is best described as a new form 
of geo-military transnational gang activity.
    The affiliations of violent extremists individuals and groups are 
loose with membership remaining fluid--one individual or small group 
may identify with al-Qaeda today, and switch its identification to ISIL 
or al-Shabaab or Boko Haram depending on which group is perceived to be 
the strongest.
    These groups require chaos to function and they attack institutions 
and people regardless of their religious or ethnic traditions to 
destabilize regions.
    They act in the name of religion but institute intra- and inter-
Muslim faith conflicts against individuals and mosques to kill 
thousands.
    Violent extremism is not new--those who struggle to hold onto an 
idyllic past or rigid view of their faith that does not tolerate non-
conformism has plagued societies throughout history.
    The only tools that have succeed in overcoming violent extremism is 
the commitment of those most affected by their violence to stand 
against them.
    In the case of ISIS/ISIL the boots on the ground needed to defeat 
them must be Egyptian, Jordanian, Saudi Arabian, Kurdish, Peshmerga 
with the full support of United States resources.
    I firmly believe that the most important lesson over the last 
decade is that the United States can want many things for the peoples 
of the impacted region, but it is the people in the impacted regions 
who must win these victories for themselves.
    We must remember that after the battles are all fought and decided 
that the underlying causes for so many willing souls to commit 
themselves to kill and die for ISIS/ISIL and Boko Haram must be 
addressed.
    Where there is poverty, corruption, a sense of not having value or 
social worth, violence and systemic disparity in living conditions and 
insurmountable forces to resist upward mobility by poor communities 
lays fertile ground for recruiting training and turning young minds 
toward violence.
    Some would argue that these problems are not ours to solve.
    The counter argument is that the cost of not solving these 
underlying problems makes the ability to win a lasting end to violent 
extremism nearly impossible.
    We cannot kill ideas with bombs--we must change hearts and minds.
    I am a firm supporter of getting to the source of problems that 
come from the complexity of our interconnected world.
    Part of the struggle for peace we have today is a direct 
consequence of invading Iraq without provocation or reason.
    Paraphrasing Secretary of State Colin Powell's advice to President 
George W. Bush: ``If we break it--we will own it.''
    He was warning President Bush about the folly of entering into a 
war of choice with Iraq and the complexities of that region of the 
world that could spiral out of control.
    It is time that we recognize how right Secretary Powell was then 
and how his words are playing out every day.
    Added to the challenge of violent extremism is its ability to very 
effectively use the tools of social media to reach far beyond the 
battlefield to influence young people to join their cause.
    Our work as Members of this committee should focus on ensuring that 
the Department of Homeland Security has the resources needed to meet 
the challenges presented for violent extremism.
    I thank today's witnesses and look forward to their testimony.
    Thank you.

    Chairman McCaul. We are fortunate to have a very 
distinguished panel before us here today. First, Speaker Newt 
Gingrich served as Speaker of the House of Representatives from 
1995 to 1999. He served the sixth district of Georgia in the 
House for 20 years, and he is currently a contributor to CNN. 
Thank you, sir, for being here today.
    Next we have General Michael Hayden. He is a principal at 
the Chertoff Group. Served as the director of the Central 
Intelligence Agency from 2006 to 2009 and as director of the 
National Security Agency from 1999 to 2005 and held a variety 
of other posts during his 41-year Air Force career. Thank you, 
sir, as well.
    Mr. Philip Mudd is a senior research fellow at the New 
America Foundation. He served in the Central Intelligence 
Agency for 20 years, including as deputy director of the 
agency's Counterterrorism Center from 2003 to 2005, and he also 
served in the FBI's National security branch. Thank you, sir.
    Then finally we have Mr. Brian Jenkins. He is a senior 
advisor to the president of the RAND Corporation, served as an 
advisor to the White House commission on aviation safety and 
security and advised the National commission on terrorism in 
2000. Previously also served in the United States Army. Thank 
you, sir, for being here as well.
    The Chairman now recognizes Mr. Gingrich.

 STATEMENTS OF HON. NEWT GINGRICH, FORMER SPEAKER OF THE U.S. 
                    HOUSE OF REPRESENTATIVES

    Mr. Gingrich. Thank you, Chairman McCaul and Ranking Member 
Thompson, and all the Members of the committee for holding this 
very important hearing. I am glad that you have begun a process 
of fundamental rethinking which a number of other committees 
will have to emulate. It is vital that the United States 
Congress undertake a thorough no-holds-barred review of the 
long global war in which we are now engaged with radical 
Islamists.
    This review will require a number of committees to 
coordinate, since it will have to include Intelligence, Armed 
Services, Foreign Affairs, Judiciary, and Homeland Security at 
a minimum.
    There are three key sobering observations about where we 
are today which should force this thorough, no-holds-barred 
review of our situation. These three points, which I think are 
backed up by the facts, suggest that the United States is 
drifting into a crisis that could challenge its very survival 
over time.
    First, it is the case that after 35 years of conflict, 
dating back to the Iranian seizure of the American Embassy in 
Tehran and the ensuing hostage crisis, the United States and 
its allies are losing the long global war with radical 
Islamists. We are losing to both the violent jihad and to the 
cultural jihad. The violent jihad has shown itself recently in 
Paris, Australia, Tunisia, Syria, Iraq, Libya, Egypt, Gaza, 
Nigeria, Somalia, Afghanistan, and Yemen, to name just some of 
the most prominent areas of violence.
    Cultural jihad is more insidious and in many ways more 
dangerous. Cultural jihad strikes at our very ability to think 
and have an honest dialogue about the steps necessary for our 
survival.
    Cultural jihad is winning when the Department of Defense 
describes a terrorist attack at Fort Hood as workplace 
violence.
    Cultural jihad is winning when the President refers to 
random killings in Paris, when they were clearly the actions of 
Islamist terrorists and targeted against specific groups.
    Cultural jihad is winning when the administration censors 
training documents and lecturers according to sensitivity so 
that they cannot describe radical Islamists with any reference 
to the religious ideology which is the primary bond that unites 
them.
    In the 14 years since the 9/11 attacks, we have gone a long 
way down the road of intellectually and morally disarming in 
order to appease the cultural jihadists who are increasingly 
aggressive in asserting their right to define how the rest of 
us think and talk.
    Second, it is the case that in an extraordinarily dangerous 
pattern our intelligence system has been methodically limited 
and manipulated to sustain false narratives while suppressing 
or rejecting facts and analysis about those who would kill us. 
For example, there is clear evidence the American people have 
been given remarkably misleading analysis about al-Qaeda based 
on a very limited translation and publication of about 24 of 
the 1.5 million documents captured in the bin Laden raid.
    A number of outside analysts have suggested that the 
selective release of a small number of documents was designed 
to make the case that al-Qaeda was weaker. These outside 
analysts assert that a broader reading of more documents would 
indicate al-Qaeda was doubling in size when our Government 
claimed it was getting weaker, an analysis also supported by 
obvious empirical facts on the ground.
    Furthermore, there has been what could only be deliberate 
foot-dragging and exploiting this extraordinary cache of 
material. Both Lieutenant General Mike Flynn, the former head 
of the Defense Intelligence Agency, and Colonel Derek Harvey, a 
leading analyst of terrorism, have described the deliberately 
misleading and restricted access to the bin Laden documents. A 
number of intelligence operatives have described censorship 
from above designed to make sure that intelligence which 
undermines the official narrative simply does not see the light 
of day.
    Congress should explore legislation which would make it 
illegal to instruct intelligence personnel to falsify 
information or analysis. Basing American security policy on 
politically-defined distortions of reality is a very dangerous 
habit which could someday lead to a devastating defeat. 
Congress has an obligation to ensure the American people are 
learning the truth and have an opportunity to debate potential 
policies in a fact-based environment.
    Third, it is the case that our political elites have 
refused to define our enemies. Their willful ignorance has made 
it impossible to develop an effective strategy to defeat those 
who would destroy our civilization. For example, the 
President's own press secretary engages in verbal gymnastics to 
avoid identifying the perpetrators of violence as radical 
Islamists.
    Josh Earnest says such labels do not, ``accurately describe 
our enemies'' and that to use such a label, ``legitimizes 
them.'' This is Orwellian doublespeak. The radical Islamists do 
not need to be delegitimized. They need to be defeated. We 
cannot defeat what we cannot name.
    There has been a desperate desire among our elites to focus 
on the act of terrorism rather than the motivation behind these 
acts. There has been a deep desire to avoid the cultural and 
religious motivation behind the jihadist factions.
    Let me conclude because of time. I think it is very 
important that we recognize that there are ties between 
Minneapolis and Mogadishu. There are ties between London, 
Paris, and ISIS. Al-Qaeda exists in many forms and under many 
names. We are confronted by world-wide recruiting on the 
internet, with Islamists reaching out to people we would never 
have imagined were vulnerable to that kind of support.
    We have been refusing to apply the insights and lessons of 
history, but our enemies have been very willing to study, 
learn, and rethink them. Until we reverse this, we will not in 
fact be capable of winning this war.
    [The prepared statement of Hon. Gingrich follows:]
             Prepared Statement of Honorable Newt Gingrich
                             March 24, 2015
    Thank you Chairman McCaul and Ranking Member Thompson and all the 
Members of the committee for holding this very important hearing.
    I am glad that you have begun a process of fundamental rethinking 
which a number of other committees will have to emulate.
    It is vital that the United States Congress undertake a thorough, 
no-holds-barred review of the long, global war in which we are now 
engaged with radical Islamists. This review will require a number of 
committees to coordinate since it will have to include Intelligence, 
Armed Services, Foreign Affairs, Judiciary, and Homeland Security at a 
minimum.
    There are three key, sobering observations about where we are today 
which should force this thorough, no-holds-barred review of our 
situation.
    These three points--which are backed up by the facts--suggest the 
United States is drifting into a crisis that could challenge its very 
survival.
    First, it is the case that after 35 years of conflict dating back 
to the Iranian seizure of the American Embassy in Tehran and the 
ensuing hostage crisis, the United States and its allies are losing the 
long, global war with radical Islamists.
    We are losing to both the violent Jihad and to the cultural Jihad.
    The violent Jihad has shown itself recently in Paris, Australia, 
Tunisia, Syria, Iraq, Libya, Egypt, Gaza, Nigeria, Somalia, 
Afghanistan, and Yemen to name just some of the most prominent areas of 
violence.
    Cultural Jihad is more insidious and in many ways more dangerous. 
Cultural Jihad strikes at our very ability to think and to have an 
honest dialogue about the steps necessary for our survival. Cultural 
Jihad is winning when the Department of Defense describes a terrorist 
attack at Fort Hood as ``workplace violence''.\1\ Cultural Jihad is 
winning when the President refers to ``random'' killings in Paris when 
they were clearly the actions of Islamist terrorists and targeted 
against specific groups.\2\ Cultural Jihad is winning when the 
administration censors training documents and lecturers according to 
``sensitivity'' so that they cannot describe radical Islamists with any 
reference to the religious ideology which is the primary bond that 
unites them.\3\
---------------------------------------------------------------------------
    \1\ Department of Defense Press Release, August 20, 2010, http://
www.defense.gov/news/newsarticle.aspx?id=60536.
    \2\ President Obama, Interview with Vox News, February 2015, http:/
/www.vox.com/a/barack-obama-interview-vox-conversation/obama-foreign-
policy-transcript.
    \3\ Deputy Attorney General James M. Cole Speaks at the 
Department's Conference on Post- 
9/11 Discrimination, October 19, 2011 http://www.justice.gov/opa/
speech/deputy-attorney-general-james-m-cole-speaks-department-s-
conference-post-911.
---------------------------------------------------------------------------
    In the 14 years since the 9/11 attacks, we have gone a long way 
down the road of intellectually and morally disarming in order to 
appease the cultural Jihadists who are increasingly aggressive in 
asserting their right to define how the rest of us think and talk.
    Second, it is the case that, in an extraordinarily dangerous 
pattern, our intelligence system has been methodically limited and 
manipulated to sustain false narratives while suppressing or rejecting 
facts and analysis about those who would kill us.
    For example, there is clear evidence the American people have been 
given remarkably misleading analysis about al-Qaeda based on a very 
limited translation and publication of about 24 of the 1.5 million 
documents captured in the bin Laden raid. A number of outside analysts 
have suggested that the selective release of a small number of 
documents was designed to make the case that al-Qaeda was weaker.\4\ 
These outside analysts assert that a broader reading of more documents 
would indicate al-Qaeda was doubling in size when our Government 
claimed it was getting weaker--an analysis also supported by obvious 
empirical facts on the ground. Furthermore, there has been what could 
only be deliberate foot-dragging in exploiting this extraordinary cache 
of material.
---------------------------------------------------------------------------
    \4\ Stephen Hayes and Thomas Joscelyn, ``How America Was Mislead on 
al Qaeda's Demise,'' Wall Street Journal, March 5, 2015; http://
www.wsj.com/articles/stephen-hayes-and-tomas-joscelyn-how-america-was-
misled-on-al-qaedas-demise-1425600796.
---------------------------------------------------------------------------
    Both Lt. General Mike Flynn, the former head of the Defense 
Intelligence Agency, and Colonel Derek Harvey, a leading analyst of 
terrorism, have described the deliberately misleading and restricted 
access to the bin Laden documents.
    A number of intelligence operatives have described censorship from 
above designed to make sure that intelligence which undermines the 
official narrative simply does not see the light of day.\5\
---------------------------------------------------------------------------
    \5\ Eli Lake, `` `Over My Dead Body': Spies Fight Obama Push to 
Downsize Terror War,'' The Daily Beast, May 21, 2015; http://
www.thedailybeast.com/articles/2014/05/21/over-my-dead-body-spies-
fight-obama-push-to-downsize-terror-war.html.
---------------------------------------------------------------------------
    Congress should explore legislation which would make it illegal to 
instruct intelligence personnel to falsify information or analysis. 
Basing American security policy on politically-defined distortions of 
reality is a very dangerous habit which could someday lead to a 
devastating defeat. Congress has an obligation to ensure the American 
people are learning the truth and have an opportunity to debate 
potential policies in a fact-based environment.
    Third, it is the case that our political elites have refused to 
define our enemies. Their willful ignorance has made it impossible to 
develop an effective strategy to defeat those who would destroy our 
civilization.
    For example, the President's own press secretary engages in verbal 
gymnastics to avoid identifying the perpetrators of violence as radical 
Islamists. Josh Earnest said such labels do not ``accurately'' describe 
our enemies and that to use such a label ``legitimizes'' them.\6\
---------------------------------------------------------------------------
    \6\ John Earnest, Press Conference, January 13, 2015, https://
www.whitehouse.gov/the-press-office/2015/01/13/press-briefing-press-
secretary-josh-earnest-1132015.
---------------------------------------------------------------------------
    This is Orwellian double-speak. The radical Islamists do not need 
to be de-legitimized. They need to be defeated. We cannot defeat what 
we cannot name.
    There has been a desperate desire among our elites to focus on the 
act of terrorism rather than the motivation behind those acts. There 
has been a deep desire to avoid the cultural and religious motivations 
behind the Jihadists' actions. There is an amazing hostility to any 
effort to study or teach the history of these patterns going back to 
the Seventh Century.
    Because our elites refuse to look at the religious and historic 
motivations and patterns which drive our opponents, we are responding 
the same way to attack after attack on our way of life without any 
regard for learning about what really motivates our attackers. Only 
once we learn what drives and informs our opponents will we not repeat 
the same wrong response tactics, groundhog day-like, and finally start 
to win this long war.
    Currently each new event, each new group, each new pattern is 
treated as though it's an isolated phenomenon--as if it's not part of a 
larger struggle with a long history and deep roots in patterns that are 
1,400 years old.
    There is a passion for narrowing and localizing actions. The early 
focus was al-Qaeda. Then it was the Taliban. Now it is ISIS. It is 
beginning to be Boko Harum. As long as the elites can keep treating 
each new eruption as a free-standing phenomenon, they can avoid having 
to recognize that this is a global, world-wide movement that is 
decentralized but not disordered.
    There are ties between Minneapolis and Mogadishu.\7\ There are ties 
between London, Paris, and ISIS. Al-Qaeda exists in many forms and 
under many names. We are confronted by world-wide recruiting on the 
internet, with Islamists reaching out to people we would never have 
imagined were vulnerable to that kind of appeal.
---------------------------------------------------------------------------
    \7\ CBS News, ``Minneapolis has become a recruiting ground for 
Islamic extremists'', August 27, 2014; http://www.cbsnews.com/news/
minneapolis-has-become-recruiting-ground-for-islamic-extremists/.
---------------------------------------------------------------------------
    We have been refusing to apply the insights and lessons of history 
but our enemies have been very willing to study, learn, rethink, and 
evolve.
    The cultural Jihadists have learned our language and our 
principles--freedom of speech, freedom of religion, tolerance--and they 
apply them to defeat us without believing in them themselves. We 
blindly play their game on their terms, and don't even think about how 
absurd it is for people who accept no church, no synagogue, no temple, 
in their heartland to come into our society and define multicultural 
sensitivity totally to their advantage--meaning, in essence, that we 
cannot criticize their ideas.
    Our elites have been morally and intellectually disarmed by their 
own unwillingness to look at both the immediate history of the first 35 
years of the global war with radical Islamists and then to look deeper 
into the roots of the ideology and the military-political system our 
enemies draw upon as their guide to waging both physical and cultural 
warfare.
    One of the great threats to American independence is the steady 
growth of foreign money pouring into our intellectual and political 
systems to influence our thinking and limit our options for action. 
Congress needs to adopt new laws to protect the United States from the 
kind of foreign influences which are growing in size and boldness.
    Sun Tzu, in the Art of War, written 500 years before Christ, warned 
that ``all warfare is based on deception''. We are currently in a 
period where our enemies are deceiving us--and our elites are actively 
deceiving themselves--and us. The deception and dishonesty of our 
elites is not accidental or uninformed. It is deliberate and willful. 
The flow of foreign money and foreign influence is a significant part 
of that pattern of deception.
    We must clearly define our enemies before we can begin to develop 
strategies to defeat them.
    We have lost 35 years since this war began.
    We are weaker and our enemies are stronger.
    Congress has a duty to pursue the truth and to think through the 
strategies needed and the structures which will be needed to implement 
those strategies.
    Thank you for this opportunity to discuss the dangers we face.
    I look forward to your questions.

    Chairman McCaul. Thank you, Mr. Speaker. The Chairman now 
recognizes General Hayden.

 STATEMENT OF MICHAEL V. HAYDEN, (USAF-RET.), FORMER DIRECTOR, 
  CENTRAL INTELLIGENCE AGENCY, AND FORMER DIRECTOR, NATIONAL 
                        SECURITY AGENCY

    General Hayden. Thank you, Chairman McCaul and Ranking 
Member Thompson, for the invitation. Let me also thank the 
entire committee for taking on what is a difficult but very 
important topic. We are engaged in a global battlefield, 
fighting against those who would commit violence on the 
innocent for their own warped objectives. There is much to be 
said about the battlefield, and I am sure we will be talking in 
great detail about it as we go forward today.
    But I also know we cannot have an honest discussion of that 
without also discussing one of the world's great monotheisms. 
So before I launch into that let me say that I understand that 
Islam, Christianity, and Judaism all trace their roots back to 
the same deserts, that we are all people of the book and that 
we are all children of Abraham. But we cannot conduct, as the 
Speaker just noted, we cannot conduct a useful discussion of 
the current conflict without also talking about Islam.
    We are not talking about all of Islam. We are certainly not 
talking about all Muslims, but we risk confusing ourselves if 
we ignore the religious roots that some use to justify their 
violence.
    If you look at the current conflict in the Levant, ISIS and 
so on, there are actually three wars going on there 
simultaneously. The first is an intra-Sunni battle. In one case 
one group of Sunni terrorists, ISIS, against another group, al-
Qaeda. In another it is Sunni-based violent extremism against 
the Sunni states in the region, so it is ISIS Jordan, ISIS 
Egypt, ISIS against Saudi Arabia. It is all Sunni on Sunni, 
with Sunni fundamentalists trying to construct an Islamic 
caliphate at the expense of traditional Muslim states.
    Second conflict, Sunni-Shia, which is unfortunately the 
continuation of the succession crisis that began at the death 
of the Prophet in 632. Here we have the so-called Shia 
crescent--Iran, large portions of Iraq, the Alawites in Syria, 
Hezbollah in Lebanon--against the Sunni monarchies in states 
like Egypt. Frankly, the worst of the current violence we are 
seeing like, as you mentioned, Mr. Chairman, the mass bombings 
in Yemen, reflect the Sunni-Shia conflict. I suspect that is 
going to take on an increasingly powerful flavor for the 
violence in the Middle East.
    The third conflict is the challenge of reconciling Islam 
with what we in the West at least call modernity. I want to 
avoid cultural arrogance here, since Christendom went through a 
similar crisis in the 17th Century. But at the end of the 
Thirty Years War then we in Europe broadly decided to separate 
the sacred from the secular in our political cultures. I know 
that is an oversimplification but it is instructive, and that 
outcome has led to a growth of religious tolerance that has 
characterized at least the best of Western life since then.
    It remains to be seen whether or not another great 
monotheism, Islam, follows that same arc, or if religion there 
will remain the business of the state, or in its extreme form, 
replace the state.
    Now the common thread across those three conflicts within 
Sunni Islam, Sunni-Shia, and Islam and modernity, the common 
thread is Islam. Richard Haas, the chairman of the Council on 
Foreign Relations, has compared the current conflict to the 
Thirty Years War in Europe. I fear that he is correct and, Mr. 
Chairman, what we are seeing here is going to last a generation 
or more.
    I know that a lot has been made about recent administration 
comments that what we really have here is a lack of opportunity 
and these issues could be solved by more jobs and better 
economic development, and actually there is truth to that. When 
I was at CIA I was fond of saying that many jihadists join the 
movement for the same reasons that some young Americans join 
the Crips and the Bloods. There is much here about youthful 
alienation, the need to belong to something greater than self, 
the search for meaningful identity. But it also matters what 
gang you join, and this gang at its senior levels justifies its 
horrific violence through reference to the holy Quoran.
    Mr. Chairman, it is fundamentally a struggle over ideas. 
Unfortunately, it is a struggle over which we, as a largely 
Judeo-Christian nation, have only limited influence. We can try 
to set the conditions for success, we could try to empower and 
protect moderate voices. But we also have to look to our own 
safety by resorting to force to kill or capture those who are 
already committed to do us violence.
    But in the long term the only solution for this lies within 
Islam itself, and here a recent speech by President Sisi of 
Egypt to the scholars at El Azhar University, the seat of Sunni 
scholarship, is incredibly encouraging. In essence the 
President of Egypt told the theologians that they have to get 
their act together and correct and discredit what he views to 
be gross misinterpretations of Islamic scripture by the 
jihadists.
    By the way, he also attended mass and wished his Coptic 
fellow citizens Merry Christmas. President Sisi is an 
observant, pious Muslim, so his words and his action should 
carry some weight and also offer us some hope.
    Mr. Chairman, there is a lot more to be said about this and 
I look forward to the committee's questions.
    [The prepared statement of General Hayden follows:]
                Prepared Statement of Michael V. Hayden
                             March 24, 2015
    Thank you Chairman McCaul and Ranking Member Thompson for the 
invitation to be here today. Let me also thank the entire committee for 
taking on this difficult, but very important topic.
    We are truly engaged on a global battlefield fighting against those 
who would visit violence on the innocent for their own warped 
objectives.
    There is much to be said about this battlefield and I am sure we 
will discuss the roots of the violent extremism which we now face.
    And I know we cannot have an honest discussion of that without also 
discussing one of the world's great monotheisms. So before I launch 
into that, let me say that I understand that Islam, Christianity, and 
Judaism all trace their roots to the same deserts. That we are all 
people of the book. And that we are all children of Abraham.
    But we cannot conduct a useful discussion of our current conflict 
without also talking about Islam. In my view, we are not talking about 
all of Islam and we certainly are not talking about all Muslims, but we 
risk confusing ourselves if we ignore the religious roots that some use 
to justify their violence.
    In looking at the current conflict in the Levant, there are 
actually three wars going on simultaneously.
    The first is an intra-Sunni battle, in one case pitting Isis 
against al-Qaeda. In another case, it is Sunni-based violent extremists 
against the Sunni states in the region. Here we see Isis against 
Jordan. Isis against Egypt. Isis against Saudi Arabia. This is all 
Sunni-on-Sunni, with Sunni fundamentalists trying to construct an 
Islamic caliphate at the expense of traditional Muslim states.
    The second conflict is Sunni-Shia, the continuation of a succession 
crisis following the death of the prophet that began in 632. Here we 
have the so-called Shia Crescent--Iran, much of Iraq, the Alawites in 
Syria, and Hezballah in Lebanon--against the Sunni monarchies and 
states like Egypt. The worst of the current violence we are seeing, 
like the horrific mosque bombings in Yemen, reflect this conflict. And 
I think we will see this conflict becoming more dominant and more 
violent as we go forward.
    The third conflict is the challenge of reconciling Islam with what 
we in the West call modernity. I want to avoid cultural arrogance here, 
Mr. Chairman, since Christendom went through a similar crisis in the 
17th Century. And at the end of the Thirty Years War then, we in Europe 
broadly decided to separate the sacred from the secular in our 
political cultures. I know that that is an oversimplification, but it 
is instructive. That outcome has led to a growth of religious tolerance 
that has characterized the best of Western life since. It remains to be 
seen whether or not another great monotheism, Islam, will follow this 
same arc or if religion there will remain the business of state or--in 
its extreme form--replace the state.
    The common thread across these three conflicts is Islam. And 
indeed, Richard Haass, the chairman of the Council on Foreign 
Relations, has compared the current conflict in the Levant to Europe's 
Thirty Years War. I fear that he is correct and what we are seeing here 
will last a generation or more.
    I know that much has been made about recent administration comments 
that what we really have here is a lack of opportunity and that these 
issues could be solved by more jobs and better economic development.
    There is actually truth to that. When at CIA I was fond of saying 
that many jihadists join the movement for the same reasons that some 
young Americans join the Crips and the Bloods. There is much here about 
youthful alienation, the need to belong to something greater than self, 
the search for meaningful identity. But it also matters what gang you 
join. And this gang, at its senior levels, justifies its horrific 
violence through references to the holy Quran.
    This is fundamentally a struggle over ideas, and unfortunately it 
is a struggle over which we, as largely a Judeo-Christian nation, have 
only limited influence. We can try to set the conditions for success, 
by empowering and protecting moderate voices, for example. We also have 
to look to our own safety by resorting to force to kill or capture 
those already committed to doing us violence.
    But over the long term, the only solution lies within Islam itself. 
Here, the recent speech by President Sisi of Egypt to the scholars al 
Azhar University, the seat of Sunni scholarship, is most encouraging. 
In essence, the president told the theologians that they have to get 
their act together and correct and discredit what he views to be gross 
misinterpretations of Islamic scripture by the jihadists.
    Sisi also attended Mass and wished his Coptic fellow citizens Merry 
Christmas.
    President Sisi is an observant, pious Muslim so his words and his 
actions should carry some weight and offer us some hope.
    Mr. Chairman, there is a lot more to be said about this topic and I 
look forward to the committee's questions.

    Chairman McCaul. Thank you, General. The Chairman now 
recognizes Mr. Mudd.

STATEMENT OF PHILIP MUDD, SENIOR FELLOW, NEW AMERICA FOUNDATION

    Mr. Mudd. Thank you. I was calculating that I think I sat 
through maybe 2,000 threat briefings between 2001 and 2010 at 
the FBI and CIA, so let me sketch that story and bring it to 
today. Those first briefings I sat in, we had an adversary, an 
enemy that was geographically concentrated, Afghanistan, 
Pakistan. We had a clear partner, that was largely the 
Pakistanis, extending to people like the Saudis, but a lot of 
the action was in the tribal areas of Pakistan.
    Recruitment by the adversary was done personally. The 19 
hijackers had personal interaction, either themselves or with 
their partners within al-Qaeda organization, and we owned the 
data. Silicon Valley didn't.
    Let's transition quickly. If you look at the intervening 
years, we went from Afghanistan and Pakistan. I remember the 
threat briefings about the beheading of an American in Saudi 
Arabia back in about 2003. We had attacks against tourists and 
embassies in Indonesia back in that time frame. We transitioned 
to foreign fighters going into Iraq.
    I moved to the Bureau. We had Somali kids, first-generation 
in Minneapolis, Minnesota, going out to Somalia. We went back 
to Iraq and today we talk about Nigeria. So the geographic 
space has changed radically in the 14 years.
    Let me take you back to the story of the threat table and 
transition to where we are today and draw a contrast. We don't 
have a geographic location. We have got Africa, we have got 
Tunisia, we have got Somalia, Yemen, Iraq. The Indonesians and 
the Filipinos have done okay, but I am not sure they will do 
okay forever.
    We don't have a single partner. We have got partners in 
Mali and Cameroon, in Nigeria. We have got partners in the 
African Union. We have lost partners in Yemen, so the 
partnerships are going to change radically as the geography and 
the adversary changes.
    The adversary is recruiting not personally but digitally. 
We did not face this at the threat table in 2001, 2002, 2003. 
We didn't. We don't own the data. PayPal does, Google does, 
Verizon does.
    So let me offer you a suggestion, a handful of suggestions 
on how we handle not only a conflict that has changed rapidly 
in the story that I just told you but a conflict that I can 
tell you as an expert analyst, I don't know where it is going 
to go tomorrow. Anybody who says here is the geographic space 
and here is the partner in 2016, throw them out. They don't 
know.
    No. 1, we are going to have to be agile. Look at what the 
French did in Mali a few years ago. Small footprint, special 
forces, intelligence support, partnership with local security 
services, and think about bringing in the CIA and the military 
to talk about not where the geography is--we don't know--but 
how do we ensure they are enabled for rapid movement against a 
rapid adversary?
    When you do that, let me caution you, there is going to be 
human rights problems. If you think that is theoretical, we 
deal with it today in Iraq and we are dealing with it in 
Nigeria. These are the partners who are fighting the 
adversaries. These partners are dirty and the partners of the 
future will be. So when we think about enabling them, we are 
going to step into it.
    Next, and let me close on this. The cyber issue, which I 
know is critically important to a lot of you, and in the past 
few years I have been out of Government and talked to the cyber 
folks, talked to Silicon Valley. Not only do we not own the 
data, the U.S. Government is not well-positioned, nor will it 
ever be, to own a conversation in a democratic society about a 
religion that is not part of our Judeo-Christian heritage. We 
don't own the concepts. Furthermore, I don't think we have the 
agility to respond to an adversary that moves as quickly as 
this adversary does.
    I think we need a different engagement in the digital 
space. None of this engagement, in my view, should be led by 
the U.S. Government. It should be enabled by the U.S. 
Government. Let me give you two examples.
    The scenarios I see for recruitment on the internet. A 15-
year-old girl, for example in Denver, talks to somebody on 
Facebook, maybe sees something on Twitter, maybe sees something 
in Instagram. The scenarios we worry about there, the age of 
the child, the travel routes, the way data moves, the way that 
individual interacts with the internet. We should be creating 
scenarios that we talk about with the owners of the data in 
Silicon Valley. What I am talking about is having working 
groups and saying, this is what we are seeing in the digital 
space. You own the space. What would you recommend we do and 
what are you worried about in terms of law and policy?
    ``What should we do?'' is the question that we should be 
posing to Silicon Valley and not necessarily telling them how 
we are going to resolve this.
    Finally, when we fight this I think we should be enabling 
people who are already in this space. Let me give you one 
example. Women are powerful in this game because families are 
being destroyed. Increasingly those women have smart phones. If 
you look at smart phone usage and how smart phone usage will 
change in the Arabian Peninsula, in north Africa, remarkable.
    We should be talking also to NGOs, for example, about how 
we open doors in places like Africa and Central Asia. Bring in 
Yahoo, bring in Twitter. What do you need to do to ensure that 
women get on-line and start talking about how violence is 
destroying families? I am not saying that is the only solution. 
All I am saying is in the examples I gave you in the digital 
space, the U.S. Government doesn't own the data and they don't 
own the action.
    Just a few thoughts. I think I am 1 second over.
    [The prepared statement of Mr. Mudd follows:]
                   Prepared Statement of Philip Mudd
                             March 24, 2015
    The terror battleground has undergone a revolution during the 14 
years after the 9/11 attacks. Among the most significant changes 
intelligence community agencies face are the rapid spread of the 
physical geography of terrorism and the virtual geography of terror 
propaganda, radicalization, and recruitment.
    When I returned to the CIA from a White House assignment in January 
2002, the CIA Counterterrorist Center faced a clear terror target: The 
architects of the 9/11 attacks. Most of those al-Qaeda terrorists fled 
from Afghanistan to Pakistan--though some went to Iran--and their 
geographic footprint was small; overall, the al-Qaeda organization was 
not large. Before 9/11, though, the dissemination of the al-Qaeda 
message had spread across the globe, as far afield as East Asia, North 
Africa, and Western Europe. The methods of disseminating that message 
had not yet entered the internet age. Today, like the rapid spread of 
the locations in which al-Qaeda-inspired groups operate, the virtual 
efforts by these groups have ridden the internet and social media wave. 
What was once an al-Qaeda group is now an al-Qaedist revolution.
    Both these stories, then--the physical reach of violent extremism 
and its virtual influence--have changed, and they continue to evolve 
quickly:
  <bullet> We do not have an adversary's leadership that operates 
        within one clearly-defined geographic area. The al-Qaedist 
        revolution, now morphed into the new and different ISIS 
        ideology, includes leadership and groupings in areas as far-
        flung as northern Nigeria, Libya, Syria, Iraq, Yemen, and the 
        West.
  <bullet> We cannot target individuals who are radicalization nodes; 
        now, the nodes are virtual, difficult to trace, and easily 
        altered, sheltered, or moved by the adversary.
    We can talk about the evolution of these changes and the emerging 
virtual nodes, but we might consider focusing as well on how we respond 
to them, in both the public and private sectors. Following are a few 
questions we might consider discussing during the hearing on 24 March:
  <bullet> What kind of public/private partnerships might we consider 
        as we enter an era in which private companies--phone, internet, 
        shopping, and other digitally-driven firms--hold information 
        that can help locate, track, and apprehend adversaries?
  <bullet> How should the U.S. Government engage with NGOs and private-
        sector companies in developing strategies to counter this 
        ideology? Should the Government lead or follow?
    Thank you for inviting me to the hearing. I look forward to the 
conversation about the future of counterterrorism, and the future of 
intelligence and Federal law enforcement in the digital age.

    Chairman McCaul. Thank you, Mr. Mudd.
    Mr. Jenkins is recognized.

STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISER TO THE RAND 
                PRESIDENT, THE RAND CORPORATION

    Mr. Jenkins. Chairman McCaul, Ranking Member Thompson, 
Members of the committee, thank you very much for inviting me 
to testify on this important issue. Right now the United States 
confronts a complex and scary matrix of threats. I am going to 
focus on the threats emanating from the groups in the Middle 
East.
    The civil wars in Syria and Iraq will continue. That is 
going to sharpen the sectarian divide between Sunnis and Shias. 
It is going to continue to threaten the stability of the 
region, and it is going to continue to attract foreign 
recruits. This goes on.
    But neither the rebels arrayed against the Assad regime nor 
the so-called Islamic State forces in Iraq are going to be able 
to bring down the governments in Damascus or in Baghdad. But 
neither government is going to be able to reestablish its 
authority throughout its territory.
    Meanwhile, the surrounding countries and the rest of the 
world will be dealing with the consequences of these conflicts 
for many years to come: Humanitarian catastrophe, massive 
refugee populations, and what has become a terrorist factory.
    Two galaxies of jihadist terrorism in the region represent 
a threat to the U.S. homeland, al-Qaeda and its affiliates, and 
the Islamic State of Iraq and the Levant. Although the 
capability of al-Qaeda's core group itself to launch direct 
attacks on the United States has diminished, al-Qaeda remains 
committed to attacking us through its affiliates, its allies 
and home-grown terrorists.
    U.S. and British intelligence officials have recently 
warned that al-Qaeda elements in Syria are also attempting to 
recruit foreign fighters to mount terrorist attacks in the West 
right now.
    ISIL is a bit different. ISIL has murdered Westerners who 
have fallen into its hands. It has urged its supporters to 
carry out terrorist attacks in their own countries. It has 
applauded them when they have done so. It continues to attract 
large numbers of Western recruits.
    The group right now is preoccupied with expanding and 
defending its territory. However, ISIL could change its 
strategy as it loses ground to U.S.-supported offensives. 
Facing defeat, it could implement a revenge-driven strategy 
aimed at provoking a final showdown.
    Retaking the towns now held by ISIL is certain to be a long 
and bloody struggle which could scatter fleeing foreign 
fighters across the planet. Some Westerners will come home 
seeking refuge or revenge.
    Meanwhile, Western governments are faced with a continuing 
flow of nationals to Syria while trying to intercept those 
coming back, and that volume is growing.
    The good news is that thus far comparatively few Americans 
are involved in going off to Syria and Iraq, although that 
number is already more than the total number that tried to go 
to all of the other jihadists fronts since 9/11.
    Western governments also have to deal with the threat of 
action by frustrated home-grown jihadists who are unable to 
travel to Syria. Now ISIL's use of deliberate barbaric forms of 
violence, this resonates with a self-selecting audience of 
people who are not repelled by such atrocities and may even 
exert to participate. This is a dangerous bunch.
    The last couple of years the terrorist jihad has been 
distracted by the schism between al-Qaeda and the Islamic 
State. The two wings of the jihadist movement have even engaged 
in open warfare in Syria. But these internal divisions have 
not--have not prevented the spread of jihadist ideology and the 
establishment of new jihadist footholds. The emergence of the 
two powerful jihadist adversaries with access to considerable 
human and financial resources perpetuates the threat. The 
recent attacks on Western tourists in Tunisia and on Shia 
mosques in Yemen, both of which were claimed by ISIL, 
underscore the danger.
    Neither side exercises direct control over home-grown 
jihadists. In fact, some Western jihadists welcome the split, 
hoping that it will lead to a competition to see which can 
carry out the more spectacular attacks. The ideology of violent 
jihad is certainly going to continue. It is going to fuel these 
regional conflicts while continued exhortation on the internet 
and intensive media coverage of terrorist attacks like those in 
Brussels, Ottawa, Sydney, Paris, and Copenhagen are going to 
excite jihadist fanatics and what we might call jihadist loons.
    The most likely threat right now to the United States 
homeland comes from home-grown terrorists carrying out 
unsophisticated but lethal assaults. Returning foreign fighters 
add another layer to the threat, and although international 
cooperation hopefully has made the terrorists' operating 
environment a bit more hostile for them, still we have to be 
willing to accept the risk of more ambitious attempts launched 
on the United States from abroad. I look forward to your 
questions.
    [The prepared statement of Mr. Jenkins follows:]
          Prepared Statement of Brian Michael Jenkins \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT429.html.
---------------------------------------------------------------------------
                             March 24, 2015
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, thank you for inviting me to testify on this important 
issue.
    Homeland security today confronts a complex and scary matrix of 
threats that range from continued efforts to radicalize and recruit 
home-grown terrorists to sophisticated cyber attacks on our financial 
systems and critical infrastructure.
    My testimony will focus on the terrorist threat emanating from the 
conflicts in Syria and Iraq. Here are the key conclusions:
  <bullet> The civil wars in Syria and Iraq will continue, sharpening 
        the sectarian divide between Sunnis and Shias, threatening the 
        stability of the region, and attracting foreign recruits.
  <bullet> Neither the rebels arrayed against the Assad regime nor the 
        so-called Islamic State forces in Iraq will be able to bring 
        down the governments in Damascus or Baghdad. But neither 
        government will be able to reestablish its authority throughout 
        its territory.
  <bullet> For the foreseeable future, Syria will remain a mosaic of 
        ethnic and sectarian enclaves, some under government control, 
        others under rebel control. In Iraq, Iranian-backed Shia 
        militias augmented by regular Iraqi forces and some Sunni 
        militias may push back the Islamic State, but the central 
        government has relinquished military power to militias under 
        control of Iran, Shia clerics, or tribal sheikhs. The Iraqi 
        army is not the dominant member of this assemblage. The 
        territory controlled by Kurdish forces will remain autonomous, 
        if not formally independent. Winning back territory from the 
        Islamic State will not win the loyalty of Iraq's Sunnis. 
        Excesses by Shia militias will guarantee their continued 
        resistance.
    The surrounding countries and the rest of the world will be dealing 
with the consequences of these conflicts--humanitarian catastrophe, 
massive refugee populations, and a terrorist factory--for many years to 
come.
    There are now two galaxies of jihadist terrorists in the region 
that represent a credible threat to the U.S. homeland: Al-Qaeda and its 
affiliates, particularly Al-Qaeda in the Arabian Peninsula (AQAP) in 
Yemen and Jabhat al-Nusra (JAN) in Syria, and the Islamic State of Iraq 
and the Levant (ISIL).
    The al-Qaeda threat is a continuing one. Although the capability of 
its core group to launch direct attacks on the United States--the ``far 
enemy''--has diminished, al-Qaeda remains committed to attacking us 
through its affiliates, allies, and home-grown terrorists. In the past, 
AQAP has recruited volunteers and attempted terrorist attacks on U.S.-
bound flights and continues to try to inspire recruits to carry out 
attacks in the United States. U.S. and British intelligence officials 
warn that al-Qaeda elements embedded in al-Nusra are also attempting to 
recruit foreign fighters to mount new terrorist attacks in the West.
    ISIL presents a long-term threat. It has brutally murdered 
Westerners who fell into its hands. It has urged its supporters in the 
West to carry out terrorist attacks in their own countries and has 
applauded them when they have done so. And it continues to attract 
large numbers of Western recruits.
    There is no evidence yet that ISIL is planning to launch its own 
terrorist attacks in the West. It is currently preoccupied with 
expanding and defending its territory, which is why it needs a 
continuing flow of foreign volunteers. However, ISIL could change its 
strategy as it loses ground to U.S.-supported ground offensives. Facing 
defeat, it could implement a revenge-driven strategy calculated to 
provoke direct American intervention and a final showdown.
    Retaking the cities and towns now held by ISIL is almost certain to 
be a long, bloody struggle, which could easily turn into a slaughter 
that scatters fleeing foreign fighters across the planet. Some will 
join other jihadist fronts; Libya, Yemen, Afghanistan, and the Caucasus 
are possibilities. Some Westerners will seek refuge--or revenge--at 
home.
    Meanwhile, Western governments, including the United States, are 
faced with the continued flow of their nationals to Syria and Iraq 
while trying to intercept those coming back, possibly to carry out 
individual acts of terrorism. This has already occurred, albeit on a 
small scale, in Europe.
    European authorities are already being overwhelmed by the volume of 
persons traveling to and from Syria. Thus far, the number of Americans 
involved appears to be manageable with current resources and laws, 
although that number is growing. According to official estimates, 
between 130 and 150 Americans have gone to or attempted to go to Syria 
in the past 3 years--already more than the total number that have gone 
to or tried to go to all of the other jihadist fronts since 9/11, a few 
more than 100.
    Western governments must also deal with the threat of action by 
frustrated home-grown jihadists who are inspired by al-Qaeda's or 
ISIL's exhortations to action but who are unable to travel to Syria. 
ISIL's claimed re-creation of the Caliphate has galvanized extremists 
world-wide. ISIL has also effectively exploited social media to reach a 
large and impressionable audience.
    ISIL's use of deliberately barbaric forms of violence--mass 
executions, beheadings, crucifixions, burning people alive--resonates 
with a unique, self-selecting audience of people who are not repelled 
by such atrocities and may even seek to participate in them. Intensive 
media coverage of terrorist attacks like those in Brussels, Ottawa, 
Sydney, Paris, and Copenhagen or of stabbings or driving automobiles 
into crowds provide further incitement to jihadist fanatics and 
jihadist loons.
    Since the latter part of 2013, the terrorist jihad has been 
distracted by the schism between the supporters of al-Qaeda and the 
supporters of the Islamic State. Competition between these groups' 
leaderships for pledges of loyalty and expressions of support 
continues. Open warfare between the two factions has occurred in Syria. 
Victory by one over the other seems unlikely. The jihadist movement 
will always be subject to centrifugal forces, but the current split may 
or may not persist.
    The internal divisions have not prevented the spread of jihadist 
ideology and establishment of new jihadist footholds, whether these 
display al-Qaeda's black standard or the logo of the Islamic State. 
Beyond Syria and Iraq lies a complex landscape of shifting loyalties.
    In addition to AQAP in Yemen and al-Nusra in Syria, al-Qaeda counts 
on its Somali affiliate, al-Shabaab, and its North African affiliate, 
al-Qaeda in the Islamic Maghreb (or AQIM), which has some presence in 
Tunisia. Al Murabitun is a splinter group of AQIM operating in the 
Sahel. In late 2014, al-Qaeda established a new front in India, calling 
it al-Qaeda in the Indian Subcontinent, or AQIS.
    Ansar al Sharia in Libya and Tunisia (the two are distinct 
organizations) remain unaffiliated, although some of their members have 
declared their loyalty to the Islamic State, which has been recruiting 
from various al-Qaeda and independent groups. An estimated 3,000 
Tunisians and over 500 Libyans are reportedly fighting in Syria and 
Iraq.
    Boko Haram in Nigeria and Ansar al Maqdis or Ansar Jerusalem, 
operating in Egypt's Sinai desert, have both pledged loyalty to the 
Islamic State, as have some disgruntled Taliban leaders in Afghanistan.
    The recent attack on Western tourists in Tunisia and explosions at 
Shia mosques in Yemen, both of which were claimed by the Islamic State, 
along with the closing of American diplomatic facilities in Saudi 
Arabia, underscore the danger posed by the spread of jihadist ideology 
and radicalizing role of the conflicts in Syria and Iraq.
    Despite the poaching of recruits and mustering oaths, in fact, the 
feud between al-Qaeda and the Islamic State has little relevance 
outside of the war zone in Syria. Neither side in the internal quarrel 
exercises direct control over home-grown jihadists, where the push for 
action comes as much from the bottom as it does from the top. Some 
Western jihadists even welcome the split, hoping that it will lead to 
competition between the two wings of the movement to see which can 
carry out more spectacular attacks in the West.
    Both al-Qaeda and ISIL believe that communications are as important 
as the armed struggle. Both have effectively exploited the internet, 
al-Qaeda in a more controlled manner and ISIL using social media. We 
have never really abated the power of the message coming from al-Qaeda, 
and now ISIL, through its actions and communications, has amplified 
that message to inspire a broader audience. That message will continue 
to spread and fuel instability in regional conflicts.
    There is, nonetheless, good news--in that neither al-Qaeda nor ISIL 
has achieved more than limited success in persuading Americans to join 
their version of jihad. The terrorist organizations have not been able 
to build a deep reservoir of support here; there have been few 
terrorist plots, and thus far there is no exodus of U.S. volunteers 
going to Syria.
    The most likely threat to U.S. homeland security therefore comes 
from home-grown terrorists carrying out unsophisticated, but lethal, 
attacks. As we have seen in the terrorist assaults at Fort Hood, Paris, 
and Tunis, or numerous non-terrorist shootings in the United States, a 
pair of gunmen, or even just one, can cause serious casualties. Over 
the long term, we cannot exclude the possibility of more ambitious 
plots, although domestic intelligence efforts have been remarkably 
successful.

    Chairman McCaul. Thank you, Mr. Jenkins. The Chairman now 
recognizes myself for questions. I look back--the President's 
campaign narrative was to end the war in Iraq and Afghanistan 
and shut down Guantanamo. We were so quick to withdraw out of 
Iraq, we failed to negotiate a status of forces agreement and 
the political malfeasance with the Prime Minister Maliki and 
his purging of the Sunni tribes, those two factors coupled 
together I think created the formation of ISIS.
    I think this President has had a hard time getting his head 
wrapped around, how could this have happened under my watch? 
How could ISIS have happened? Now we have seen the 
establishment of a caliphate in Iraq and Syria and we are also 
seeing what I call forward operating bases now in northern 
Africa and throughout the Middle East.
    We are seeing the rapid destabilization. We saw that in 
Yemen. It happened in Libya. We saw Tunisia being hit, and it 
is all throughout northern Africa, including when we had to 
shut down our embassies temporarily in Saudi Arabia.
    This is alarming to me, and I agree with the Speaker that 
we are currently losing this war. But I always think the first 
premise when you fight a war, and it is, is to define the enemy 
to defeat them. Yet the President fails to call it what it is, 
and that is radical Islamist extremism.
    Mr. Speaker can you tell me why some discount that, that it 
is just not important? General Hayden, I think you talked about 
the house of Abraham. I saw the structure of his house in Iraq 
and the three major religions coming out of that house, I hope 
one day we can coexist peacefully. It may not happen in my 
lifetime but I want it to happen in my children's lifetime. But 
it is theologically-based.
    So Mr. Speaker, can you tell me why that is so important?
    Mr. Gingrich. Thank you. I think the core thing to 
understand here, and this goes way beyond the current 
administration. This was also true under President Bush. We had 
a fundamental misunderstanding of our enemies from Day 1. This 
is a movement. It is not an organization. You can't take Cold 
War models of the Communist Party structure, just as you can't 
take Western models of state-to-state conflict.
    This movement has been out there. You can argue when it 
should start. I am actually thinking about trying to put 
together a course on this. Because you can argue it starts with 
Khomeini coming back from Paris and issuing his book on Islamic 
governance. You can argue that it starts with the war in 
Afghanistan and people like the mujahedin becoming more and 
more radicalized.
    You can argue it starts with the Muslim Brotherhood and the 
degree to which their leadership right after World War II was 
deeply offended by the West. I mean, they come in a room like 
this, they see women sitting here, they know this is sinful, 
they know this is evil and they say so.
    They go back and they say, look, we are being destroyed. 
When Khomeini said we were the great Satan, he really meant our 
cultural system was a direct assault on everything he believed 
in. We don't understand, this is a movement. You know, ISIS 
didn't exist 2\1/2\ years ago. So the focus now on ISIS is just 
one more example of the American model of bunchball, where we 
all rush to the latest thing and then we are going to focus on 
Boko Haram and then we will focus on al-Shabab. The fact is, 
there is a world-wide movement. It is connected by religious 
fanaticism. It exists in both a physical and cultural warfare 
model. None of that is permitable in the current American 
governing structure. You can't have this conversation in the 
Executive branch. I think it means we have--and this is not 
about Obama. We as a country have a huge problem because we 
can't even describe who opposes us.
    Chairman McCaul. General Hayden, we pulled our embassy out 
of Yemen. With that goes a great degree of our intelligence 
footprint capability, as you know as former director of the 
CIA, NSA. The special forces now are withdrawing.
    AQAP, one of the biggest threats to the United States in 
terms of external operations, five plots in recent years, 
including the Christmas day bomber, responsible also for the 
Paris attacks. These are the ones, when you say who was most 
likely hit the United States, it is always AQAP. Yet now we are 
completely withdrawing so they can operate with impunity.
    My concern, and quite frankly, sir, given your experience, 
is the lack of coverage that we are going to have now, lack of 
ability to know what is going on on the ground and a lack or 
inability to attack AQAP before they can attack us. Can you 
comment on that?
    General Hayden. I can, Mr. Chairman. I can imagine what is 
going on at Langley now as they try to recover or at least 
sustain some of the things that had been going on in Yemen. 
Your question is fundamentally about the physical pressure we 
were able to maintain on al-Qaeda in the Arabian Peninsula. We 
had two broad thrusts there I think. One was cooperating with 
the Yemeni government and using their forces to create that 
kind of physical pressure. Well, that government no longer 
exists so that is off the table.
    We had our own forces there largely through targeted 
killings. Targeted killings require exquisite intelligence and 
there is no secret sauce there. It is fabric that is created 
out of all varieties and streams of intelligence collection.
    So let's look now at what is our capacity to continue 
targeted killings. Tactical intelligence will continue. I 
suspect it will be a little degraded but pretty much stays in 
place. Liaison with the government in Yemen, that is gone.
    Then finally, the human sources, which are really critical 
in making sure you are being very correct when you apply 
violence with this kind of precision. The human source networks 
will continue but I suspect they will erode over time because 
of our lack of physical presence in the country. So I think the 
overall assessment is the physical pressure we had on al-Qaeda 
in the Arabian Peninsula is reduced and, barring something like 
a return, it will continue to erode as we go forward.
    Chairman McCaul. Thank you, and I would submit it is also 
true in Libya and in Syria today. I am very concerned about 
this.
    The Chairman recognizes the Ranking Member.
    Mr. Thompson. Thank you very much. Mr. Speaker, let me say 
how I appreciate your historical analysis of how we got to 
where we are today, and the fact that rather than just blame 
President Obama, you talked about the broader perspective.
    General Hayden, let me say how I appreciate you 
understanding the fact that when a situation is bad that 
sometimes we have to take our men and women out of a situation, 
reassess, and come back with a different strategy. All our 
brave people do a wonderful job, but at some point if 
situations become intolerable, you have to retreat for an 
alternate strategy.
    So I think my concern is for you, sir, is based on what I 
have heard from the testimony, it is absolutely imperative that 
we identify what allies we have left in the region, that we 
create some kind of a strategy to address this in a broader 
fashion because their enemy is our enemy and we have to 
convince our allies that that is what we have to do. Obviously 
we are going to have to have a significant burden with that 
task. I understand that.
    General, can you tell me if that strategy of working with 
our allies is still a good strategy going forward?
    General Hayden. It is, Congressman, and even if it has its 
failings, in many cases there are few and sometimes no other 
options available. So we have eroded the cooperation with the 
Yemeni government now, which has ceased to function. We have 
very strong relationships with the Saudi government, whose 
interest in Yemen is at least as strong as ours, and so I am 
sure that we are deepening the liaison relationship with them 
as well.
    Phil mentioned the importance of liaison in our past 
successful efforts, but the fact is we are going to have to be 
very agile. Frankly, and I don't mean to refer to the Saudis in 
this light, but frankly begin to cooperate with some folks in 
an ideal world we would rather not have on our side because of 
the great threat posed by the extremists right now.
    One other thing I would mention, Congressman, is on that 
decision to remove the forces, Special Forces from Yemen, to 
evacuate the embassy, I feel as if I have no right or grounds 
to second-guess that decision. That is kind of like the field 
commander has got to call it as he sees it. People like us, 
like me just support the field commander making that decision.
    Mr. Thompson. Mr. Speaker, you want to comment on whether 
working with allies is still a good strategy in this fight 
against terrorism?
    Mr. Gingrich. I think working with allies is the only 
strategy that will work. I mean almost all of our successful 
wars, whether it is World War II, or the Cold War, we have 
always tried to surround ourselves with allies.
    The fact is, in some cases--I mean it is unfortunate right 
now that, for example, the administration is not doing more to 
reinforce el-Sisi, who is the President of Egypt, and who has 
taken exactly the right position on the need to reform Islamic 
views to make them more modern.
    But I also want to reemphasize something which has been 
said by several people up here. We are going to have a lot--we 
are going to have allies that make us uncomfortable. We are 
going to have allies that don't fit the test of exact purity. 
Let me just be a little controversial since I used to serve up 
here.
    You know it would be really helpful for the Congress to go 
to the agencies and find out, what are the things Congress has 
imposed over the last 40 years that make agility impossible? 
What are the things Congress has imposed that make working with 
difficult allies very dangerous?
    I mean we have managed to set a standard of purity which 
cripples us in dealing with this. We have managed to set a 
standard of bureaucracy, which virtually guarantees we won't be 
agile. Congress is going to have to reform those things because 
they are written into the law.
    Mr. Thompson. Mr. Jenkins, with the time I have left, do 
you see the lone-wolf scenario as a clear and present danger 
for us here in this country?
    Mr. Jenkins. First of all, I despise the term lone wolf. I 
just think that it romanticizes and elevates these adversaries. 
I have always instead used the term stray dogs. That is not to 
be insulting, but the problem we face is you know you--it is 
very, very difficult to predict dangerousness.
    We have these people that are on the internet. They are 
barking. They are snapping. They are exhorting each other to 
action. To try to figure out which one is going to bite is 
very, very difficult.
    I mean and so this is a problem we have. As these volumes 
of home-grown and foreign fighters increase, that just 
increases the problem overall.
    Thus far we have been really fortunate here in that in the 
United States, in terms of Americans getting involved in this, 
we have had a number of dangerous people. But the numbers are 
nowhere comparable to what we see taking place in Europe. That 
is the good news.
    The second part of the good news is that these plots, many 
of them have been remarkably amateurish and have been--there is 
a reason for that. That is because a lot of them are one-offs. 
These are not terrorist groups that are able to carry on 
continued operations.
    I mean in the 1970s we were dealing with 50 to 60 terrorist 
bombings a year in this country. But that was carried out by 
groups, whether on the far left or far right or motivated by 
foreign quarrels. They carried on those campaigns. They started 
out as incompetent. Over a period of time they learned how to 
do it and got better. We don't have that now.
    The third piece of good news is that our domestic 
intelligence, while still not optimal, has been extremely 
effective in identifying and breaking up a lot of these plots.
    So we do face some dangers. But thus far we have been able 
to contain this at, as I say, a much lower level than we are 
seeing abroad. That doesn't mean that one--two persons or even 
one person getting hold of a gun can't be a lethal opponent and 
carry out an attack that would create alarm and reactions in 
this country that would go far beyond even the actual 
casualties.
    Mr. Thompson. Thank you very much. I yield back.
    Chairman McCaul. Chairman recognizes Mr. Smith from Texas.
    Mr. Smith. Thank you, Mr. Chairman. I will yield my time to 
the gentleman from Texas, Mr. Ratcliffe, and happy to have him 
ask questions.
    Mr. Ratcliffe. Thank the gentleman. I would like to thank 
the witnesses here for giving testimony today and being willing 
to discuss what I think is perhaps the most critical topic of 
our day. I say that as a former U.S. attorney and as a former 
terrorism prosecutor who has seen and learned first-hand the 
gravity of the threat that violent Islamic extremism poses to 
the United States and to the rest of the world.
    I have also seen where President Obama has recently 
declared that al-Qaeda is on the run. He of course has mocked 
ISIS as the junior varsity. He in fact refuses to use the word 
Islam and terrorism in the same sentence.
    In short, I think that the administration's approach is 
making our efforts to defend and defeat this threat even more 
difficult. I think that this is underscored by the fact, and 
reflected in the fact that we have now been forced to pull out 
of Syria. We have been forced to pull out of Libya. We have 
been forced to pull out of Yemen.
    So my first question to you, Speaker Gingrich, is: Has the 
pull-out in Syria, Libya, and Yemen compromised, in your 
opinion, our ability to intercept Islamic terrorist threats as 
they develop?
    Mr. Gingrich. Well, I would say two things. One--and I 
would be interested in the comments of other folks up here at 
this table who have much more professional background in this. 
I think it is a very different environment than anything we 
historically analyzed.
    Remember, ISIS is actually serving as a magnet to draw 
thousands of people. I just saw a study of where ISIS tweets 
come from and the U.S. ranks fourth, far above Pakistan, far 
above even Jordan. The number of people who are tweeting have 
been in favor of ISIS.
    So you have a very different kind of environment now. I 
would say that what is happening in part is that you are 
having--and this by the way, people at the CIA were warning me 
about as early as December 2001. But what you are having is an 
attractiveness for people who are alienated and who are looking 
for some meaning in their life.
    So even if you tomorrow morning could crush ISIS part of 
the result might be that you would send 10,000 foreign fighters 
back home who would actually spread the virus. We need to think 
of this as an epidemiology problem. This is not a statecraft 
problem.
    I would say that clearly, I mean the fact that we have 
closed our embassy in Saudi Arabia out of fear for physical 
safety should be a wake-up call to everybody in this country. 
The Saudis are very tough. If they are worried enough that we 
are closing the embassy, even though temporarily, I think there 
are things under way that are dangerous.
    To not understand we have a two-front war. You have the 
Iranians who are the leading sponsor of state terrorism, and 
you have a Sunni-based terrorism. They are both our mortal 
enemies. They both would be happy to destroy us. We have no 
strategy for either one right now.
    Mr. Ratcliffe. Thank you, Mr. Speaker.
    General Hayden, I would be interested in your insights on 
the same question.
    General Hayden. Sure. It is the closure of embassies and 
consulates both cause and effect here, all right. It is the 
effect of our losing control of the situation. It is also the 
cause of our losing control of the situation. As we withdraw 
and that footprint on the ground goes away, we just have a 
lower level of knowledge of the situation there.
    I would add an additional thought. I will try to use the 
language of the region. When we go about closing embassies and 
not having diplomatic presence and so on, we look weak.
    The concept of the strong horse and the weak horse is a 
very important concept in this part of the world. So we appear 
to be a nation in retreat when we take these kinds of steps, in 
addition to the concrete operational effects that it has.
    Mr. Ratcliffe. Thank you, general. I would like to ask you 
another question because in a recent piece that you wrote for 
the Washington Times earlier this month you noted that the 
administration and its negotiating partners have conceded 
Iran's right to enrich through this process.
    You quoted Henry Kissinger, saying that the administration 
has decided to ``manage rather than prevent nuclear 
proliferation.'' My question is simply this: I would like your 
insight on the broader impact of this nuclear agreement with 
respect to future--our ability to affect future counter 
proliferation efforts.
    General Hayden. I think it has a dark effect on it, 
Congressman. A couple of things come to mind. No. 1, a 
struggling, at best, regional power, it would have just stared 
down the world and six of the most powerful nations on the 
planet and has now been allowed to have an industrial strength 
nuclear program. An awful lot of other countries are going to 
school on that. So I think the effects globally are bad.
    The effects locally are bad because I don't think the Sunni 
states, and the speaker has emphasized this Sunni-Shia split 
may be becoming the defining flavor of this violence. I don't 
think the Sunnis will let that stand without a response on 
their part.
    Then finally, when you get this agreement, despite the fact 
that all the other characteristics of Iran--let's even say it 
is successful, all right, which might be problematic. All the 
other defining characteristics of Iranian states, whether of 
terrorism, regional hegemony, moving into Iraq and so on, all 
that stays in place. But they are no longer the international 
outlaw that they once were. With the signing of this agreement 
they become more or less a normal country, which makes all 
these other factors even worse.
    Mr. Ratcliffe. Thank you, general.
    I have questions for all of the witnesses. I wish I had 
more time to ask them. I again want to thank you all for being 
here. This is, again, a vitally important issue. Your testimony 
is going to be critical in forming our opinions going forward 
on this committee. Thank you for being here. I will thank the 
gentlemen again and yield back.
    Chairman McCaul. Thank you.
    The Chairman recognizes Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    General Hayden, particularly in your testimony you talked 
about the Shia-Sunni divide. The current head of ISIS is Abu 
Bakr al-Baghdadi.
    Abu Bakr al-Baghdadi takes his name from Abu Bakr, who was 
a companion of the Prophet Muhammad. He was not a prophet 
himself, but also the father-in-law of the Prophet Muhammad. He 
was the first caliph in Val Nasser's ``The Shia Revival.''
    He talks about the divide between Shia and Sunni in that in 
certain parts of the Middle East Sunnis believe that Shia are 
apostates, they are nonbelievers. He also believes that--some 
believe that Shias have tails.
    I just want to deal with what we have today within the 
historical context of what we know only too well. We were told 
that there would be an international response to degrade and 
destroy ISIS. We were told that this coalition would consist of 
62 countries, including many of the 22-member Arab League 
nations. Look at the record. From the air last month General 
Lloyd Austin said that 8,500 ISIS militants were killed by 
coalition air strikes in Iraq and Syria.
    To date, coalition forces conducted 1,631 airstrikes in 
Iraq; 1,551 or 70 percent were conducted by the United States. 
Coalition forces conducted 1,262 airstrikes in Syria; 1,169 or 
93 percent were carried out by the United States.
    Of the 1,262 coalition airstrikes in Syria, only 84 were 
conducted by Arab nations of Jordan, Bahrain, Saudi Arabia, and 
the United Arab Emirates combined. None of the Arab nations are 
conducting airstrikes in Iraq. Where is the international 
coalition, including the Arab League?
    The United States has also provided $2.9 billion in 
humanitarian aid to Syria, far more than anybody else. The 
United States continues to provide record humanitarian and 
development assistance to Iraq.
    Let's move to the ground. The CIA estimates that there are 
31,000 ISIS fighters in Iraq and Syria. ISIS controls Iraq's 
second-largest city of Mosul with between 1,000 and 2,000 
fighters embedded there.
    Mosul has a population of a million people. We are told 
that to retake Mosul we need between 20,000 and 25,000 Iraq and 
Kurdish forces that will be required to clear block-by-block 
ISIS from Mosul after United States air strikes are conducted 
there.
    United States spent $26 billion to build a 250,000-member 
Iraqi army. The first test of the Iraqi army was against ISIS 
last July. The Iraqi army folded, to put it mildly.
    Also, there are by some estimates between 400,000 and 
800,000 Shia militias supporting the Iraqi army today. The 
problem is they have a sectarian goal, not a nationalist goal. 
Those militias are directed by a guy by the name of Qasem 
Soleimani. Soleimani is the commander of the Quds Force in Iran 
who is now on the ground in Iraq.
    Further, earlier this year the new Prime Minister Abadi 
announced a major assistance plan for Kurdistan consisting of 
17 percent of all Iraq's oil revenues in perpetuity, and $1 
billion to support the Kurdish army, the Peshmerga. Peshmerga 
are an experienced and effective fighting force of some 
180,000.
    Now we are told that we might need American troops on the 
ground in addition to the 3,000 that we currently have there. 
Where is the international coalition? Where is the Arab League?
    So, the math just doesn't add up. You got between 400,000 
and 800,000 Shia militias supported by our guy in Iraq. You got 
180,000 Peshmerga who just did an oil revenue and military 
support deal with our guy in Iraq.
    Then you have the Iraqi army who ran last year from ISIS. 
Now we are told because of a change in government for a few 
months they now have the will and the skill to fight ISIS. My 
concern is this: 1.3 million Iraq fighters should be able to 
retake Mosul of 1,000 or 2,000 ISIS fighters. They should be 
able to take on 31,000 estimated ISIS fighters in Iraq and 
Syria.
    Without a clear national agenda, not a sectarian one, we 
may be looking at deploying American troops into what 
potentially will be a second civil war, in the same decade, 
essentially alone again.
    See, in that part of the world where there is no political 
center you only have sides. While the overlay is that the 
American presence is vitally important to defeat ISIS, and we 
have demonstrated clearly a willingness to do that and to 
commit resources to it.
    But in that part of the world there is also not only the 
morning after, but the morning after the morning after. As the 
Speaker said, you know they are just waiting to get ISIS out of 
there so they can have their civil war. That is the dilemma 
that we are dealing with.
    I took a lot of time for the question. I apologize for not 
leaving a lot of time for the answer.
    General Hayden. Just a couple of comments come to mind, 
Congressman. First of all, with regard to the American 
footprint, I don't think anyone responsible is calling for 
American combat brigades to be maneuvering in the Syrian or 
Iraqi desert again. But I do think our rules of engagement make 
our current deployment less effective than it would otherwise 
be.
    We don't allow our forces to go forward below brigade 
echelon levels, which means that they don't stiffen the local 
forces. It is more difficult to call in precise tactical 
airstrikes. We don't have our own reach out and touch people 
arm with regard to American Special Forces.
    With regard to the Peshmerga, they are very large, actually 
quite good. I actually think they are our best friends in the 
region. But they have largely been a checkpoint army. They have 
been responsible for local security. So there is a transition 
there, not just with training but with equipment.
    You mentioned the Sunni-Shia divide. Absolutely. Right now, 
as I think you suggested, what we have are Shia militias under 
Iranian officers attempting to retake Tikrit, an overwhelmingly 
Sunni town. That is not part of the solution. That is a 
continuation of the problem. I think we should judge it to be 
that way.
    Then finally with boots on the ground, sooner or later we 
will need boots on the ground. My sense is we are going to have 
to have Sunni feet in those boots from one country or many from 
the region. Otherwise it will be for naught.
    Chairman McCaul. Gentleman's time is expired. Mr. King is 
recognized.
    Mr. King. Thank you, Mr. Chairman.
    Let me thank all the witnesses for their testimony. 
Speaker, it is always good to see you back.
    General Hayden, my first question would be to you. 
Congressman Ratcliffe mentioned Iran and also the op-ed that 
you wrote the other day. As I understand the press reports, 
negotiators are seeking a verification spectrum regime that 
would keep Iran a year away from enriching enough fissile 
material to make a bomb.
    You stated in the op-ed that the 1-year breakout time may 
not be sufficient to detect and reverse Iranian violations. Can 
you expand on that and say why you believe the verification 
regime may not be sufficient?
    General Hayden. Yes, sir. First of all, a year looks like a 
long period of time and from some aspects it is.
    I co-authored that with Olli Heinonen from the IAEA. So 
Olli brought his knowledge of how things work in Vienna. I 
brought my background with how things work in the American 
intelligence community.
    We gamed it out. We didn't take a long time before we began 
to figure out scenarios in which it would be very difficult to 
mobilize action within a 12-month period.
    First of all, Mr. Chairman, you have got the distance 
between flash and bang. You have got from the Iranian violation 
to the first detection of the Iranian violation, which may be a 
considerable period of time. You go from the first detection to 
building up a body of evidence that you can convince the 
American Government that what you have got here is a very 
serious problem.
    I can only imagine, Congressman, what the burden of proof 
is going to look like if whether director of National 
intelligence goes into the Oval Office and says, Mr. President 
we have got a real issue here.
    After the President has decided that we have got a real 
issue here, he has got to take it to the international 
community because, as you well know, as this thing is rolling 
out it is going to be the Security Council that is going to 
validate this agreement.
    So to un-validate this agreement will require us going 
first to Vienna to get the international inspectors to look at 
that which we suspect. Then from Vienna to New York in order to 
aggregate international action to give us sanction to take 
whatever steps we think might be necessary.
    You go to New York you are trying to convince the Russians 
and the Chinese. So it is not hard to imagine scenarios in 
which a year isn't enough to mobilize action that would truly 
deter the Iranians from completing the break-out.
    Mr. King. Thank you, general. Let me also--I would be 
remiss if I didn't thank you for the--all the free advice and 
counsel you have given me over the years. So thank you very 
much. Let me ask--I guess starting with Newt and going across. 
It has been mentioned that General Sisi has really stepped 
forward as a moderate Muslim speaking to secular-type 
interpretation. If each of the four of you can comment on the 
fact that we are denying weapons systems right now to President 
Sisi. Any of you? Newt? Mr. Speaker, excuse me.
    Mr. Gingrich. I think this administration is almost 180 
degrees off in reality about what is going on in Egypt. The 
Muslim Brotherhood is our enemy, not our friend. Yet the State 
Department meets with the Muslim Brotherhood.
    El-Sisi, who may not represent everything you would like in 
good government, does represent a very long Egyptian tradition 
that has been very hostile to radical Islamists, and is very 
much desirous of being an ally of the United States. I think we 
should be doing everything we can to strengthen him and to 
reinforce his legitimacy.
    Because as General Hayden said, you would like him to look 
like the strong horse, not the weak horse. You would like 
people to think gee, if you are an ally of the United States 
the world gets better, it doesn't get worse. The administration 
is almost precisely opposite what it should be in reality.
    General Hayden. I would add to that very briefly, look, I 
was made uncomfortable by what the general did in the year or 
so after he took power from Mohamed Morsi. There are too many 
people in jail and there are too many journalists in jail.
    But all that said, we talked about, you know, we don't get 
to pick all of our partners in this war, despite discomfort 
with some of the things he has done, he is going to be one of 
the more acceptable partners in this conflict.
    I see every advantage in our repairing our relationship 
with him.
    Mr. King. Mr. Mudd.
    Mr. Mudd. If you look at some of the successes in recent 
years, it is groups of governments, I am thinking of the 
African Union in Somalia. I think the Nigerians will have a lot 
of success against Boko with Cameroon, Mali, et cetera.
    I think Sisi has the opportunity, when you are looking at a 
place like Libya, to give us a local partner so that we don't 
have to either wait for nothing to happen or intervene 
ourselves.
    That said, let's talk about a very simple choice. When you 
have the transition after the Arab revolutions, you have the 
choice between elections that lead to Islamists who cause 
problems, and support for authoritarian regimes that will fight 
Islamists and favor U.S. interests, but will not lead to one 
man-one vote.
    So do you want security or do you want democracy? They are 
not mixing well after the 2011 revolutions.
    Mr. King. You mentioned Libya, should we have given Egypt 
more support when they took action in Libya? Mr. Mudd.
    Mr. Mudd. I think so. Again, I am just a practitioner who 
looks at where we succeed. There are some questions about the 
fact that there was a lack of Arab support despite the sort of 
papering over of what is going on in Iraq, in other words, not 
a lot of Arab action there.
    I think the Egyptians have a lot of options for us in 
Libya. I would suggest if we do that we bring in some other 
players so it is not just us and Egypt.
    Mr. King. Mr. Jenkins.
    Mr. Jenkins. I think you have to put the events in Iran and 
the events in Egypt together. On the one hand, as Iran edges 
closer to acquisition of a nuclear weapon, or the perception 
that it is about to have one, that is--that gives them three 
things.
    It is a scepter of power. It is a potential deterrent that 
makes going against them in the future more difficult. But more 
importantly, it emboldens a more aggressive policy of backing 
subversion because they think they now have protection and can 
get away with it.
    At the same time, if you look at our relationship with 
Egypt, we have demonstrated a degree of unreliability, not to 
say fecklessness in terms of there.
    Those two things affect everyone's calculations in the 
region. These are practical people. Apart from the ideology-
driven people, these are practical people who say, all right, 
the Americans want us to do this, they want intelligence, they 
want troops, they want us to participate in their coalition.
    Now if we get in a jam, are the Americans going to be a 
reliable partner that will back us up? Or are we going to get 
lectures about democracy and other issues, which are not 
unimportant to us, but, as I say, they are going to make those 
kind of cold-blooded calculations because they have to survive 
in a very rough neighborhood.
    Mr. King. Thank you very much.
    I yield back, Mr. Chairman, thank you.
    Chairman McCaul. The Chairman recognizes the gentlelady 
from New York, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    General Hayden, you are the most experienced military 
tactician on this panel. You are the primary decision maker 
regarding America's strategy to combat violent Islamist 
extremism.
    Now putting aside the politics of how we got here, and in 
the interest of coming up with real solutions, can you lay out 
in detail what your game plan would be?
    General Hayden. Well, that is a tall order, ma'am. But a 
couple of----
    Miss Rice. I have every confidence you can handle it.
    [Laughter.]
    General Hayden. A couple of high points: Let's look at ISIS 
as kind of a close-in problem. I frankly think that our 
strategy with regard to ISIS in Iraq is coherent. I think it is 
under-resourced, all right. I don't think we are leaning 
forward enough. We talked about rules of engagement, what we 
allow our forces to do.
    So there I would double-down. I would particularly double-
down on the Kurds as a reliable partner.
    I don't see coherence yet in our strategy with regard to 
ISIS in Syria. We are keeping their heads down. We are rooting 
their capacity. We are making them less rich than they used to 
be, therefore less capable.
    But I don't think anything we are doing yet there in anyway 
fits into the decisive column. So there I think we need to do 
some heavier lifting, forces on the ground so that we actually 
have kind of a hammer and anvil with air power and ground 
forces.
    I would also reinvestigate why it is we keep the regime off 
the table in terms of people we include to be our enemy there.
    So that is with regard to ISIS. We also have kinetic 
activity we have talked about in Somalia, in Yemen, again, 
degrading those folks who are already convinced they want to 
come kill us.
    Ma'am, the most serious problem I see is the production 
rate of people who want to come kill us in 3, 5, or 10 years. 
That gets back to the ideological issue that we have talked 
about here.
    There, it is a tough game. I can't--we were actually very 
successful in the Bush administration with the close-in fight, 
those folks already committed to come and kill us. We were not 
nearly as successful with the deep fight, the ideological 
fight. That still remains the one we have to do.
    A very quick anecdote. I was President Obama's CIA chief 
for 3 weeks. During one of those weeks we actually achieved an 
operational act in the CIA that made America safer.
    Rahm Emanuel came up and said, good on you, that is really 
good stuff. I had the temerity to say to the President's chief 
of staff, thank you very much, that is very kind, but you 
understand, if we don't change the facts on the ground, we get 
to do this forever.
    We have to defend ourselves now, protect ourselves, buy 
time, but then we have got to make use of that time on these 
broader strategic issues.
    Miss Rice. Thank you, General.
    Mr. Jenkins, what is a greater threat to the United States, 
the radicalization of Americans at home or the threat of 
foreign fighters returning to the United States after becoming 
radicalized in another country?
    Mr. Jenkins. I am not recognized in the field of prophecy, 
so I am not going to try to say which would--both of them are 
simply different dimensions of the threat. As I said, thus far 
despite an intensive campaign, at least by al-Qaeda, now this 
is changing with the Islamic State.
    But at least by al-Qaeda, they have made an intensive on-
line sales campaign. They haven't sold a lot of cars. That is 
good news.
    The Islamic State is different in that they have been--
whereas al-Qaeda's communications were much more centrally 
directed and controlled through websites that favored them.
    ISIS has made much greater use of social media, and 
therefore it has reached a larger and younger audience who live 
in that media environment, and has had a greater effect.
    The real question here in the long run is, is that going to 
really change enough of them or is this becoming kind of a 
conveyor for youthful discontents and rebellion? I don't know 
about 15-year-old girls from Colorado running off to some 
romance with the desert version of Hannibal Lecter.
    I mean, but----
    Miss Rice. Well, why have they been more effective with 
their messaging and their wooing of non-Americans rather than 
Americans? Is the message different? Is the--what is----
    Mr. Jenkins. It is interesting, when you look at the 
individual biographies, they say where they are getting their 
big numbers is out of Europe. There is no question there that 
there are large unassimilated, marginalized immigrant 
diasporas, whereas in the American community where certainly we 
are a nation of immigrants as well, but we have been, and this 
is good news for us, again, much more successful in 
assimilating these people.
    So if you look at the--at, for example, education levels of 
the Americans who are being wooed into this, it is roughly the 
equivalent of the same age educational level of the general 
population.
    What you find instead therefore you find much more 
individual motives, someone feels their ``life sucks'': That is 
a quote. They are--they feel insulted. There is--no question, 
however uncomfortable that makes us, there is an element of 
religious motivation in this. But it is added to senses of 
anger, alienation, desire to do something meaningful, 
participate in an epic adventure. If you, in contrast, go to 
some of these other places where they are picking up a lot of 
people, there you really see a--much more of a community-based 
issue as opposed to an individual-based issue.
    Now, as I say, with the ability through social media to 
reach a much broader audience of young people, are they going--
is that going to remain virtual? I mean, as I said, al-Qaeda 
has created an on-line virtual army; fortunately, it remains 
mostly virtual.
    Is ISIS going to get smarter at this and be able to 
actually generate something beyond a lot of people tweeting and 
doing other things? I am not sure. So far they are picking up 
more people who intend or try to travel to Syria and Iraq.
    So they are getting a bigger purchase on an audience than 
we have seen before. That is a long-term concern.
    Chairman McCaul. The gentlelady's time has expired.
    Miss Rice. Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    I will start with Mr. Mudd, if you could. Would you be able 
to rate the current administration regarding home-grown 
terrorism, radicalization here at home, and the things that we 
have done to combat it or to deal with it in the macro and the 
micro sense?
    Assuming that you might have a divergent opinion, can you 
contrast what would you do differently from what is currently 
being done, if you can, on a macro sense, anyhow?
    Mr. Mudd. Let me give you a few thoughts. I did serve on 
loan from the CIA to the FBI for about 4\1/2\ years, so I 
watched this from the inside. Operationally I think we do 
pretty well. If you look at what we anticipated 14 years ago, 
we got a lot less than we anticipated. When you are at the 
threat table in 2001, 2002, and 2003 and somebody tells you we 
will not suffer a catastrophic event in this country, you would 
have said, no way. We did not understand the adversary.
    In terms, and so, we could talk about operationally, but I 
think the Bureau uses a lot of resources. I don't think it is 
particularly efficient. That is not a criticism. It is just 
because they are charged by people like you to make sure 
nothing happens in this country. So we chased everybody we 
could find with the resources we had when I was in the Bureau.
    Ideologically, in terms of this fight on the internet, et 
cetera, I don't think--this is not a comment on this White 
House or the other. I am a practitioner and a servant. I am not 
a politician. I don't think we do very well in this sphere 
because we want to own it within Government.
    I mentioned it earlier when I started speaking, I think 
there is an opportunity to talk to the people who do own it. 
For example, I don't want to get into specific companies, but I 
have talked to some of the companies in this space, that is the 
social media space. They don't really understand what the 
adversary looks like. Therefore, they can't offer in my 
judgment good guidance about how to chase the adversary.
    I think they see the U.S. Government as telling them what 
to do when we want their data, as opposed to saying here is 
what the target looks like. California, Silicon Valley, can you 
tell us how you want us to change the law so you can give us 
data to hunt these folks? I don't think we enable them to get 
out there and message.
    So I don't think the U.S. Government generally and the 
American system is very good at being agile and influencing the 
way people think about Islamist ideology. I don't think we 
should be that good. I think there are other people who would 
be better. I would suggest that we ask, that we give them what 
we are facing. I don't think you have to go into a secret 
environment to do that. I could brief them today.
    We tell them that this is what we are facing in the digital 
world, Facebook, Yahoo, PayPal, all these guys. What would you 
suggest we do? Let's talk about ideas before you get into 
legislative changes.
    Mr. Perry. Thank you. Mr. Speaker, I have been a combatant 
commander and I guarantee you that my troops knew what the 
mission was and knew who the enemy was, and your testimony 
particularly centered around the inability, the unwillingness 
to identify the enemy. It doesn't just stay at the top. It 
cascades down through the disparate organizations. I am 
assuming you mean DHS as well.
    So with your experience in Government and the whole-of-
Government, what do you think that this committee can do to 
motivate, so to speak, DHS to identify the enemy? I mean, we 
can't force them to do it. Then craft a policy regarding the 
identification and the defeat of the enemy within the country, 
if you would. What could this committee do?
    Mr. Gingrich. Well, first of all, the Congress actually 
could force a great deal. Now whether or not you get it signed 
into law in the short run. But if you go back, the last time we 
faced the kind of penetration we have now was in the 1930s and 
1940s with the Soviets, and the Congress was very active in 
beginning to figure out what was going on and it was very 
tumultuous. People didn't like it.
    You have got to confront the fact that what you now have is 
a willful denial of objective reality. Well, the Congress does 
have an ability to pass laws, to make regulations, and then to 
hold the kind of hearings and investigations to get this stuff 
out in the open. So I would start there. I would also say, 
since you have been a combatant commander, one of the things 
that came up earlier: It bothers me that we have had almost no 
serious review of what hasn't worked. We have been at this now 
with thousands of dead, tens of thousands of wounded. We have 
tried to train armies, which have collapsed. We clearly don't 
have the correct doctrine for what we are doing, and yet you 
are not going to go out and find very many people who want to 
peel back the cloth and figure out what we are doing.
    Finally, in terms of winning the ideological war, at its 
peak under Reagan, the U.S. Information Agency was separate 
from the State Department and 35 percent the size of State. It 
was an enormous project, consciously sending out messages that 
broke the morale of the Soviet empire. We have nothing 
comparable to that today.
    So there are a number of steps you could take, but I think 
if you simply start by saying you would like to have hearings 
on, you would like to have your staff investigating, what are 
new trainees told at DHS? What do the documents look like? What 
kind of people are brought in to the do the briefings? How are 
they vetted? I think you will be stunned how methodically and 
systematically we have become blind over the last 10 or 12 
years, and how cultural jihad is more dangerous than physical 
jihad.
    Until we confront that--and you can confront it in this 
committee by holding hearings about that agency, how it 
operates, what it tells itself, how it communicates, and you 
will begin to find out that a great deal of what we currently 
do is nonsense.
    Chairman McCaul. The Chairman recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I believe that indeed 
if you are going to analyze ISIS, ISIL, Daesh, whatever you 
want to use for a term, there is something to be said clearly 
that there are those that are true ideologues, people that have 
this apocalyptic view of things. But I have been talking to 
people on the ground over there, including military people as 
well, and they say you can't simplify it that way, that there 
are different factions.
    Now I know, you know, in my own opinion, for instance in 
the Boston bombing, Tamerlan Tsarnaev, I would say he is more 
categorized as his uncle called him, a loser, a misfit. You 
have these people, many of them foreign, you know, some of the 
foreign fighters that go over there. But there are people that 
have nothing going on in their life. They have no hope. They 
are not powerful in their own right. Nothing going on even in 
the more personal aspects of their life. They are people 
attracted to the adventure.
    Then you have another group I think, that sits sort-of 
back, the old Baathists and people that lost their power in 
Iraq, who kind-of want to sit back and influence things as best 
they can as well. Another group that has been a faction of this 
that has been talked about is just the pure criminals there, 
just out for the money.
    So I understand that many of you said that there is a 
danger in underestimating the ideological part of this, the 
religious part of this. But I think there is a danger too, to 
make one size fits all and not look at the other factions that 
are represented by that and by the things I just mentioned.
    Can you comment on that? I mean, if our approach is just 
one dimensional, there is about four factions I just named, how 
best are we approaching this? Take your pick.
    Mr. Gingrich. Who would you like----
    Mr. Keating. Well, I was hoping there would be a little 
leadership in answering that question.
    [Laughter.]
    Mr. Gingrich. Let me just say as a historian, you could 
have made exactly the same argument about the Communists and 
exactly the same argument about the Nazis. The Nazis gained an 
enormous amount of their power by attracting every loser in 
Germany and giving them a sense of meaning. The communists used 
some of the dumbest people on the planet.
    But the core operating model in both cases was highly 
ideological and was led by people quite prepared to die for 
what they believed in. All the evidence we have so far is that 
these--and I emphasize, it is a movement. I think we waste far 
too much energy arguing over organizational structures. There 
is a world-wide movement that is gaining momentum that is best 
dealt with as an epidemiology problem. The core momentum there 
is clearly driven by a sense of religious imperative.
    Mr. Keating. My impression, and I did a little work on 
this, a good example because it is my home State, is Tamerlan 
Tsarnaev is no ideologue. He is a loser. He was. So I don't 
think that holds for all the people being attracted to this. 
They are attracted for different reasons, and part of it will 
deal with how the misgovernance in a lot of these areas and the 
corruption continues to create problems.
    Again, if we are one-dimensional, just ask any of the other 
three, do you think it is that simple? It is just one group and 
you're just going to ignore all the other factions?
    General Hayden. Let me revisit something I just suggested 
in my opening comments, that indeed an awful lot of recruiting 
looks more like why young Americans join the Crips and the 
Bloods than it has to do with the holy Quoran. I understand 
that. It is alienation, it is something bigger than self and so 
on.
    But it also matters, I think as the Speaker suggested, it 
also matters what gang you join. This particular gang at the 
top is driven by this messianic, apocalyptic vision, which then 
makes these misfits joining that organization more dangerous 
than other----
    Mr. Keating. Well, I just suggest this, that that is good 
in part, in my opinion, and I don't disagree at all. Let's wipe 
out the leadership of this group. Let's get Baghdadi, let's get 
all of them. But if we don't deal with those other issues I am 
talking about, there is just going to be a new group coming up. 
That is the problem we have too.
    So if we don't understand that we have to do something with 
the Sunnis, they have to feel politically connected at all in 
this and have a place to live, if we don't deal with all these 
other issues and just spend too much of our time, inordinately 
so, I think, giving very simple answers, saying, well, the 
President doesn't recognize who it is, and if we don't call 
them by name then we can't deal with them. That might sound 
good in a sound clip, but I am talking about what is really 
happening.
    Don't you think that if we don't deal with all these other 
issues we are just going to be right back in the same cycle? 
Because all these other things are just going to bring another 
leader, another group, another ideological group.
    Mr. Mudd. One quick comment on watching the evolution of 
how these guys think. I think there is a change in evolution 
about 10 years ago. The first guys we took down at the agency 
were ideologues. The architects of 9/11 were steeped in 
thinking about how you could change Islam to justify what they 
called attacks against the far enemy, the far enemy being the 
United States.
    Overseas and in the United States, I believe starting at 
about roughly 2005, 2006, we started seeing more emotional 
motivation, people who would see a photo out of Iraq of a dead 
baby or a dead woman, saying I have got to go fight the 
crusaders because I saw this picture on Jazeera. I talked to 
some of these people. This is not a theory. This is sitting 
down, why did you go? I saw a photo.
    So there is a distinction between an upper echelon-
idealogue--they have to die; they are not going to turn back 
again. The masses who are motivated they think by idealogy, but 
by emotion.
    One closing word. When you think about not how we see this 
intellectually, but how we talk about this, be careful. The 
reason is the adversary wants to create this into us versus 
them. They want to say we are here to protect you in Iraq 
against the crusaders.
    There is now ISIS moving into Afghanistan. You just see 
interviews from the past couple days of people saying in 
Afghanistan I want to go fight the crusader in Iraq. The 
adversary cannot explain to these emotional fellow travelers 
why murder of innocence is acceptable.
    So you can categorize this for this that 98 percent is a 
fight between good and evil, which is what they want. Or you 
can categorize it as a fight against people who choose to 
murder for a political purpose----
    Mr. Keating. My time is up, but I am in agreement with what 
you said there. But just my point is it is more complex than 
that.
    I yield back.
    Chairman McCaul. Chairman recognizes Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here. It is great to see 
former colleagues from my days at the CIA. My first question is 
to General Hayden and Mr. Mudd. You know in December 2001 the 
fall of Kandahar killed 30 percent of al-Qaeda leadership.
    The fall, the Taliban was pushed out of Pakistan. There 
were 400 Americans on the ground, 100 CIA officers, 300 Special 
Forces. Is this a model? Or I guess my question is, is that--
what are the pros and cons of that model being used in places 
like Yemen, Syria, Africa? Is that something that can still be 
done?
    Mr. Mudd. Three categories of stuff because I don't think 
there is one shoe fits all. In certain cases you have a 
government that is so good at what they do that modest levels 
of American support. I would think Indonesia. Indonesians have 
done a great job against what I thought was a significant 
threat in 2003 Bali attacks, et cetera.
    Southern Philippines again, modest American support. That 
has gone pretty well. Other places you have a constellation of 
governments that can help. The African Union in Somalia has 
done well.
    I think I mentioned earlier that we can do the same thing 
with the Nigerians, Somali, Cameroon in Africa. So that is why 
I was saying support to Sisi might work. I would suggest we 
figure out if there is a group of people that sort-of spread 
the pain.
    Then finally, and I think we have talked about Iraq a lot. 
But there are certain countries that there isn't going to be a 
constellation of power. There is an American interest. There is 
a major amount of support that is required that we have to go 
in and say that regardless of whether it says in the newspapers 
that there is a coalition there is not. The Americans have to 
get more aggressive if they want to turn back this adversary.
    So I would say it depends on how much government you have. 
It depends on whether that government has a major problem or a 
modest problem. It depends on whether you can find partners to 
work. So figure out what the threat is. Figure out what the 
government capability is locally and work from there.
    General Hayden. I would agree totally. As you know, we 
spend an awful lot of time at the agency with what we call 
liaison. We do it not because we are charitable. We do it 
because it works. Obviously you can't get out of the liaison 
service something that they have not put in. But there is 
generally always something there from which you can benefit.
    Mr. Mudd. I am sorry. One more comment. We haven't talked 
about this enough. Americans are squeamish about this. Drones.
    As a practitioner I can tell you there should be a National 
conversation at some point about where drones are used in 
environments where we are not at war. For example, is Boko 
Haram an appropriate target?
    My reason is quite simple. If you look at the fundamental 
characteristics that drive success, in my judgment, for 
terrorist organizations, its visionary leadership that had the 
safe haven and time to plot. That used to be Yemen, Somalia, 
northern Nigeria, Afghanistan. Every single one of these has 
these characteristics of visionary leadership and safe haven.
    When the adversary talks about what brings them pain, and I 
use this as a litmus test, if they complain about something 
incessantly, that is a good thing. They hate drones.
    So we can be squeamish about talking about the use of 
lethal force outside war zones. We can be worried, 
appropriately, about intervening too early and alienating 
people. But if you want to take out the kinds of leadership who 
have the vision to say the far enemy in Washington is our 
enemy, drones have been incredibly effective.
    General Hayden. Could I just add after you and I said 
goodbye to one another in Texas yesterday I actually read the 
documents from the Osama bin Laden cache that were made public 
in the recent court case in New York.
    It is remarkable prose about how painful the targeted 
killing program was against the al-Qaeda leadership. It is 
something that I would recommend all of you have your staffs 
pull some quotes for you to read because Phil is right, it 
really, really hurt them.
    Mr. Hurd. Thank you, gentlemen.
    My next question is for Mr. Speaker. You talk about the 
cultural jihad. You know the CIA has traditionally had the role 
of covert action. In finding al-Qaeda in the late 2000s it was 
countering--it was propping up moderate imams to counter that 
threat. You know this is too big. The ISIS's use of social 
media is too big.
    How can the Federal--where should the Federal Government 
be? How can we be--I know you mentioned you know the U.S. 
Information Agency during the Communist era. I agree with Mr. 
Mudd that you know we have to get our partner nations involved 
in this fight. How do we do that from a Government perspective?
    Mr. Gingrich. I think it is a very important question. I 
would say first of all, Congress ought to explore 
reestablishing the USIA as an independent agency. I think we 
put it in State when I was speaker. I think in retrospect that 
is a mistake. You need a forward-looking, independent voice 
that is out there communicating your message.
    Second, and this will be very controversial and very hard 
to do. If we had had today's rules in Italy and France during 
the elections after World War II, both countries would have 
gone Communist. It is a fact that we went in very covertly with 
huge resources to make sure they did not go Communist.
    You start with el-Sisi. We should be taking his speech at 
the university, which is exactly the message we want. That 
speech should be everywhere in the Muslim world with our help 
getting it there, and translating it out of Arabic into every 
local population. So take that example.
    I think second, we are going to have to--and this goes back 
to homeland security. We have both an offensive and a defensive 
tool here. On offense we want to be communicating our messages 
on our terms. We want to do it better than our opposition, 
which today is not true. Ironically, ISIS is better at tweeting 
than the United States Government.
    Second, we defensively want to crush their capacity to 
communicate. That is going to require some very serious 
arguments inside the United States about what is and is not 
legitimate conversation, if we are serious about eliminating 
the cultural threat as well as the physical threat.
    Mr. Hurd. Thank you, Mr. Chairman.
    Chairman McCaul. Chairman now recognizes Mrs. Watson 
Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I would like 
to yield to the gentlelady from Texas.
    Ms. Jackson Lee. I thank the gentlelady, and I think the 
gentlelady is allowing me to go in front of her and not 
yielding her time for her time to be able to ask questions. Let 
me thank you for your courtesies, Congresswoman Watson Coleman. 
Let me thank the Chairman and the Ranking Member for this very 
astute and important hearing.
    My first remarks are to thank all of you for your service 
to the country. The Speaker has been the Speaker for a number 
of us who have had the privilege of serving here in the United 
States Congress. Certainly, General Hayden, we are aware of 
your wonderful leadership and service to this Nation. Mr. Mudd 
and Mr. Jenkins, we cannot do without experts.
    My first point is that I think that we must be very clear 
in Homeland Security and the other committees that terrorism 
and the fight against terrorism is not a Republican or a 
Democratic, if you will, singular and sole opportunity to claim 
service to the country.
    I am very grateful for Speaker Gingrich's comments, which 
many of us have said is that it is vital that the United 
States, if I may take your words, Congress undertakes a 
thorough, no-holds-barred review of the long global war in 
which we are now engaged. Speaker uses radical Islamists. I 
would use radical Sunnis, radical Shiites encountering 
extremism.
    He is absolutely right that we have to include 
Intelligence, Armed Services, Foreign Affairs, Judiciary, and 
Homeland Security and the leadership of the Congress to 
understand the vital roles these committees play in the 
securing of the Nation but in the coordination of their work.
    I might also say that for a long period of time that I have 
had the privilege of serving on this committee I have started 
using the term franchise terrorism. Now we have got lone wolves 
and a number of other comments.
    Let me just say this to General Hayden, if I might. Having 
been to Yemen and walked the streets when it was in a different 
status, meeting with leaders, riding in taxicabs, do you think 
it was appropriate for the administration to remove those 
Special Forces based upon what I would assume is the 
intelligence that they had at this point in time? It does not 
say whether they will return or not return? We have not made 
that conclusion. But to remove them out of harm's way.
    General Hayden. Congresswoman, I completely defer to the 
local commander and the administration. That is not something 
that should be second guessed. People who are responsible for 
the safety of our men and women have to make that decision and 
we should all just live with their judgment.
    Ms. Jackson Lee. I appreciate that because I want to make 
it very clear that we cannot be successful if we begin to say 
it is the President's fault, it is this administration's fault. 
I think Speaker Gingrich nailed it on the head. I may disagree 
with my colleagues here in Congress, but we have a 
responsibility to engage in this process.
    But I will not sit at this committee table and yield to 
conversation that suggests that the administration, in this 
instance President Barack Obama, has in any way failed any more 
than I am sure there will be challenges to my disagreement with 
the Iraq War.
    My point that the Iraq War left us in a--not in the able 
wonderful service of our many men and women of whom I visited 
in Iraq certainly could not stand in their shoes. But did not 
come to where we wanted it to be primarily because of the very 
poor leadership of Maliki and what he did with the Shiites and 
Sunnis.
    So let me, quickly, get as I remain here I want to make 
sure that we stay on the fact that we must be unified. So to 
both Speaker Gingrich, let me say that I celebrate what you 
said about the U.S. Information Agency. That is a hot point 
that we should move on quickly.
    So the question is to Mr. Gingrich, Mr. Hayden, and Mr. 
Jenkins. What are the next steps? We have lone wolves. We have 
franchise terrorism. We have gangs.
    ISIS is the most heinous organization that I think in the 
history of the United States confronting an international 
position. We cannot say that it is not. So we cannot condemn a 
President who other Presidents may have had situations of war, 
but did not have situations of ISIS.
    I would welcome the comments of Speaker Gingrich, General 
Hayden, and Mr. Jenkins, if you will, and Mr. Mudd, if you 
don't mind, I am a few seconds from ending.
    I thank my colleagues. I thank you very much.
    Mr. Gingrich. Well, let me, first of all, thank the 
gentlelady for her comments. I think we are in agreement that 
this should be dealt with as a National issue, not a partisan 
issue.
    We should be dealing with also recognizing that the next 
President and probably the President after that are gonna be 
dealing with this. This is a long, difficult process. I said on 
9/14 or 9/15, this was a 50- to 75-year war. Since I think we 
have been off-track for 15 years, unfortunately it is still a 
50- to 75-year war.
    I would say the first thing Congress could do--this will 
sound amorphous, but it is really important--the first thing 
that Congress has to have is a genuine debate about what the 
war is about. I mean, the Congress has got to decide, is this 
in fact, as I suggest, an epidemiology that involves a 
movement, that 15-year-old girls aren't being recruited in 
Denver accidentally, and that we are up against a world-wide, 
global campaign, which is gonna force us to change some of our 
rules and change some of our institutions.
    If that is true, then let me repeat the rather bold thing I 
suggested earlier, which is that Congress ought to ask the 
National security institutions what are the things that 
Congress has done over the last 30 years that hamstrings their 
ability to be effective.
    I mean, the amount of junk we have imposed on these 
agencies and on these departments that makes it impossible for 
them to have the effectiveness of the Americans between 1941 
and 1955.
    If you look at the gap in legal requirements, reporting, et 
cetera, and you will find that we have crippled ourselves and 
that this institution, the Congress, is as much at the heart of 
that as anybody else.
    I would start with: What is the nature of the war? Actually 
figure out, with a genuine National debate and resolution to 
that effect.
    Second, a genuine, serious review of what we do to make it 
impossible for the Executive branch to be effective.
    General Hayden. Congresswoman, this may reflect my personal 
experience, a little bit, but, building off of what the Speaker 
just said, I think it is the power of political consensus here.
    It is the volume of American activity, it is the 
consistency of American activity. So, if we can get the two 
political branches agreed upon objectives, the strategy and, 
frankly, what creates the left- and right-hand boundaries of 
acceptable pursuit of those objectives, I think that goes a 
long way to solving some of the problems that the Speaker 
defined.
    Ms. Jackson Lee. Thank you.
    Mr. Jenkins. I will just quickly underscore the points made 
by the Speaker and General Hayden.
    Look, World War II and the Cold War were easier, because 
they were perceived as existential threats, and that did not 
eliminate debate about strategy, but it imposed a political 
unity and a unity of effort that lasted over a period of 
decades, in the case of the Cold War.
    We do not have that now. Absent the perception, that 
perception which focuses our minds, then all sorts of other 
agendas begin to interfere with this and interfere with what we 
are doing and why we are doing it.
    So, let me go back to the Speaker's advice, in that we 
really say, what are our National interests in this part of the 
world? What are our concerns? What is it that we ought to be 
doing about it? Have we imposed upon ourselves constraints that 
don't make sense? Which of those constraints, despite the risk 
that they impose, are we going to take because they are 
fundamental reflections of American values? When we get that, 
then within that, certainly there can be political debate, but 
there cannot be a kind of zigzag course and the lack of unity 
that weakens us as a country.
    Chairman McCaul. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member.
    Chairman McCaul. The Chairman recognizes Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank all of you for being here. This is, as you can 
imagine, quite enlightening.
    I have to--following from the Congresswoman's recent 
comments, I am a little bit concerned. I mean, I hear you 
telling me that President Sisi in Egypt is the type of leader, 
although he is not perfect, and not everything we want, that we 
ought to rally around. Then I hear that we are not doing that, 
that the administration is not doing that.
    I am not trying to point fingers here, but I am wondering, 
the administration is not backing someone who you all agree 
that this is what we ought to be doing, or at least seem to be 
agreeing on that.
    Then I look at other things that have happened, like Boko 
Haram, and now they are affiliated with ISIS. Yet, the 
administration, again, never recognized them as a terrorist 
threat. It seems to me that the administration is taking the 
dental theory of ignore your teeth, and they will go away.
    I mean, we are ignoring these groups, and they are not 
going away. I am just wondering, can you prove me wrong? Can 
you enlighten me and tell me that that is not what is 
happening?
    Mr. Speaker.
    Mr. Gingrich. Well, let me draw a distinction. I do believe 
that the President and his immediate team have a world view 
which led them to believe before they came into office that 
certain strategies would work, and that those strategies 
involved a dramatic reduction in American forces and it 
involved a conscious, psychological appeasement of Islam in 
general, in the hopes that that would reduce the boiling point, 
if you will, of the problems.
    They have followed that strategy. They believe that the 
Muslim Brotherhood is a reasonable organization, at a time, by 
the way, when the Saudis have condemned it. The Egyptians have 
condemned it. The Jordanians have condemned it. When there is a 
mortal struggle under way between traditional elites and the 
Muslim Brotherhood, which is at least as vicious as the 
struggle with al-Qaeda and ISIS, a point that General Hayden 
has made, that this is a multi-way fight.
    I don't have any idea how one changes the President's view. 
The President--let me be quite clear, as an Army brat, a hard-
line Republican obviously tried to beat him twice. The American 
people picked him to be President. He gets 2 more years of 
this.
    The most we can do is try to surround him with law and try 
to surround him with appropriations that maximize moving 
towards a much more effective war footing than we are right 
now.
    But I don't think that--we can't sit around and wait for 2 
years. Frankly, just yelling at him doesn't do much good.
    Mr. Carter. Okay. I acknowledge that. I accept that.
    Tell me what we can do. Now, you--I mean, General, what can 
Congress do? What can we----
    Mr. Gingrich. Now, look, let me just start with this. 
Congress can do investigations and Congress can hold hearings, 
not just anti-administration investigations, but just trying to 
surface reality.
    Congress can also ask the great departments that are out 
there of people who have devoted their lifetime to serve this 
country. That is why I think you go to them and say, tell me 
what we do to screw up your life, you will be shocked how much 
information they are gonna give you, because nobody has ever 
asked them how they could be more effective if they weren't 
crippled by what is literally 40 years of law and regulation 
that now lays over their capabilities.
    Mr. Carter. Can you give me an example of a law or 
regulation that we can do away with that might help?
    Mr. Gingrich. I am yielding to----
    Mr. Carter. Sure.
    General Hayden. Well, all of us have pointed out that some 
of our partners in this enterprise will be partners of 
necessity more or less than partners of choice. That brings 
up--that is why I mentioned to Congresswoman Jackson Lee, you 
got to let us know the left- and right-hand boundaries of 
acceptable behavior here. Because the last thing you want is an 
agency--or the permanent government is how I would really 
describe it--going out and doing things about which they 
believe there is a political consensus. As soon as they have 
made everyone feel a lot more comfortable and a lot more safe, 
then be accused of coloring outside those left- and right-hand 
boundaries.
    Again, reflecting my personal history, Congressman, perhaps 
more than others--you know, Phil is included in this, as well--
how much energy did my own agency out at Langley put in over 
the last 3 years because of the demand to revisit what the 
agency did with al-Qaeda detainees? Now, that is a tremendous 
consumption of energy and talent. Believe me, the best of the 
agency was put on the process because of the nature of the 
problem.
    So, again, that constant political consensus, clear 
guidance that maybe looking a lot more through the windscreen 
than through the rearview mirror.
    Mr. Carter. One final question--let me ask you this--how 
much of a game plan, if you will, would it be for us to try to 
try to rally around a group there who could fight these people 
from within? I mean, would that not behoove us as a Nation? But 
yet, we don't seem to be doing that if we are not rallying 
around President Sisi.
    Mr. Jenkins. You could make a--the United States could, if 
it decided to, make a major investment to create a counterforce 
in the region. I am talking about within Syria and Iraq. It 
would be necessarily a Sunni force. We are not going to get 
Alawites under Assad or Shias being commanded by Iranian 
commanders to join it.
    Currently, we are talking about training a 5,000-person 
force. Quite frankly, a 5,000-person force is not going to be a 
contender in this. It is not even going to be a bit player. 
Maybe you do it because it is a way of keeping your hand in. 
Maybe you do it because of political pressure. But if we wanted 
to, we could say, ``Look, we are going to create a--or try to 
create a counterforce here, and it is going to represent the 
Sunnis.''
    Now, you can do that; there are questions about how 
effective it would be militarily. We can probably address that. 
But as you do that, it is always going to have political 
consequences. The political consequences are going to be, you 
are now going to have a--if we are successful, a tough Sunni 
force that is going to have something to say about its future 
in Syria and Iraq. That may not be consistent with what current 
U.S. policy is on Syria and Iraq. But we could do it.
    Chairman McCaul. The gentleman's time is expired.
    The Chairman recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman. 
Thank you to each and every one of you for your testimony.
    Speaker Gingrich, I appreciate a couple of things that you 
said--a lot of things that you said. But the notion that 
perhaps Congress needs to be evaluating and asking the 
agencies, what are the things that we have done that impede 
your ability to do what we need you to do now, that may have 
made sense back when, but perhaps don't now. I think who knows 
better than you what Congress can do to get involved and, you 
know, to create situations that need to be revisited? So, I 
appreciate that. I appreciate the fact that you are talking 
about not just one administration, but just sort of the 
evolution of the issues.
    I appreciate, Mr. Mudd, that you said that women may be the 
answer to this problem. You did say that, right? You were the 
one that said that we needed to arm women with smart phones and 
recognize that they are----
    Mr. Mudd. Correct.
    Mrs. Watson Coleman [continuing]. The mothers and they are 
the wives and they are the ones that are losing their family 
members. Perhaps, you know, in a culture that doesn't feel that 
women have much value other than to be covered and quiet, just 
the notion that we really could be a very strong force for 
peace. Because we understand the loss of life in a different 
way. I appreciated the things that you said.
    General, you said something that really struck with me. I 
believe it was you. It may have been Mr. Jenkins, though. 
Somebody said, ``ISIS is concerned with the activities in the 
region. ISIS is about creating its state and its influence in 
the region. But al-Qaeda still has an interest in coming back 
and hitting us.''
    So, I guess my question is to what extent--since I think we 
have been relatively safe--I mean, there have been things--I 
mean, we have been relatively safe here in the homeland. So, 
this administration and Congress must be doing some things 
right.
    To what extent is there the continued capacity to know in 
advance, particularly al-Qaeda, what it is thinking of doing? 
Because we hear all the time that someone had planned to do 
something, and that someone's effort had been foiled by the 
intelligence that we had.
    The other question I have--and whoever wants to jump in and 
answer, just fine with me--what should we be thinking about in 
terms of ISIS, not in terms of what ISIS is doing in the 
region, but in terms of the threat to life here on the 
homeland?
    I mean, do we see ISIS evolving into an external view so 
that now we ought to be concerned about what they are going to 
try to do here? Or is it going to be sufficiently, you know, 
busy over there, and then perhaps we need to be prioritizing 
our resources and our efforts and our concerns in a different 
way? So, I would appreciate hearing from either perspective on 
this question.
    Mr. Jenkins. Let me go first very, very quickly. We have 
been successful in thwarting home-grown terrorist plots. That 
is largely because of our efforts to--in terms of domestic 
intelligence. This has been very, very effective. With a fair 
amount of help from the American citizens and the community 
that have provided tips.
    With regard to thwarting plots from abroad, there again, we 
haven't been 100 percent successful, but that has been the 
result of probably unprecedented cooperation among the 
intelligence services and law enforcement organizations in the 
world that have enabled us to do this. Plus, our own 
significant effort.
    With regard to ISIS as a threat, I did say that ISIS right 
now is preoccupied with expanding its territory. It has--it 
cannot survive as a stable nation. This is a plunder-based 
economy driven by an internal push to take more territory and 
continued fighting. So, it has to do that.
    We are in the process now of bombing it. We may be called 
upon to increase our air campaign to help the recovery of 
Tikrit and Mosul from them. At a certain point, ISIS may decide 
that it faces defeat. The only way it can save itself is to 
draw us into some kind of a final showdown. The way to do it is 
to carry out major attacks against us. It has significant 
resources, both financial, and resources to do it.
    Mrs. Watson Coleman [continuing]. I guess for my last sort-
of comment, I am concerned that groups that align with certain 
groups--we have seen where we have had alliances. We have seen 
those alliances break down, and our alliance becomes our enemy. 
So, it is difficult for us to decide who we are going to 
coalesce with in any substantial or sustainable moment, and to 
fight a particular enemy. Because that situation has changed 
from time to time. To suggest that all we need to do is find a 
bunch of people, or a couple of countries that are going to be 
working with us, and think that that is sustainable I think is 
just sort of naive.
    I thank you very much, and I thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes Mr. Walker.
    Mr. Walker. Thank you, panel, for being here today. I would 
also like to thank the family and friends who have been very 
patient in waiting on this.
    The subject of today's hearing is the fight against 
Islamist extremism at home and abroad. I want to address that a 
little bit.
    I heard earlier from Member Keating that this is really 
just a bunch of misfits and, see, losers. I just thought 
about--of those 21 Egyptian Christians who lost their lives. 
How many of those that were actually doing the beheading would 
be considered losers and misfits? I don't think that is a 
precursor for the damage of barbaric activities that one can--
that can go into it.
    The question I have--or let me set it up this way. A few 
weeks ago, we had a few moments with Secretary Jeh Johnson. He 
said this is not theologically-based. My concern and my 
question regarding that is that he also said the imams and the 
clerics are very slow to give up some of the individuals that 
they fear have the potential of being radicalized. Well, then 
it can't be both. If it is not--if there is not a theological 
thread that runs through this--and I am speaking as a former 
minister of 15 years--who have friends and people who have been 
held captive--in fact, I am even dialoguing right now with 
Naghmeh Abedini, whose husband is in Iranian prison due to his 
Christian beliefs.
    The problem is this. It either has to have a religious 
thread to it, or they are just basically criminals. If imams 
and clerics are slow to give them up, to me, it tells me there 
is somewhere there is--even if it is extremist, there is a 
religious thread involved in this.
    I believe that General Hayden asked the question, and even 
answered it. He said, ``What unites these factions?'' You said, 
``Islam.'' Is it fair to say that if Islam is the noun in this 
process, the action is the hatred that many of these radical 
Islamic extremists have for our belief system, not just from a 
political standpoint, but also from a religious base?
    I will start with Mr. Hayden, and I would like to follow up 
with the speaker. Do you feel like that is a very valid part of 
this?
    General Hayden. The leadership of the movement--what has 
made this global has been their interpretation, and many--and I 
would agree--would say misinterpretation of Islamic scripture. 
They claim to take their legitimacy from the Islamic faith. So, 
I think we need to respect that. I will say again one more 
time, Congressman, a lot of people join just because they are 
alienated, and you have got this whole youthful wanting to be 
part of something bigger than themselves. But it does matter 
what gang you join. This gang has certain objectives and it 
legitimates certain kinds of behavior.
    Mr. Walker. Thank you, General.
    Speaker.
    Mr. Gingrich. Well, let me start by saying that to the best 
of my knowledge, the number of Norwegian Lutheran terrorists 
has been de minimis. To start with that notion--I mean, this 
whole idiocy that you can't talk honestly about the nature of 
the people who are trying to kill you strikes me as utterly 
irrational.
    By the way, we had exactly the same experience in the 1940s 
and early 1950 with the Soviets. You can read Diana West, 
``American Betrayal.'' It is breathtaking how hard we worked to 
hide from the degree of Soviet penetration because it shook our 
whole system. Well, you are in the same business again.
    So--but I want to emphasize a point here that I think will 
take a while to sink in for the whole National debate. ISIS is 
a 2-year-old phenomenon. Boko Haram starts around 2001. Al-
Qaeda is a little bit earlier. I have no idea what the various 
lineages are or the various factions in Yemen or--but my point 
is, there is a world-wide movement. It is explicitly 
religiously motivated. That doesn't mean that every Muslim is 
bad. It does mean that there is a strain of Islam which occurs 
in two forms: A physical Jihad and a cultural Jihad.
    The cultural Jihad definition is very simple. They believe 
that Islamic law is superior to all other law, and that the 
rest of us ultimately have to basically yield to Islamic law. 
Those two factions--the physical and the cultural--are clearly 
at war with the West. Until we can have an honest National 
debate and discuss that, and then say if this is true, what is 
our response?
    Mr. Walker. Thank you, Mr. Speaker.
    One of the things that offends me is the high-level 
involvement of human and sex trafficking that these particular 
factions are involved in, raising the revenue into the hundreds 
of millions of dollars.
    Part of it is this concept--that as a person of a Judeo-
Christian faith, there are dozens of places that if you were to 
enter, you would have loss of life or torture, but there is no 
place like that where an radical Islamist can enter where he 
has to be that concerned. So, I want us to look at it from--
globally.
    The last thing--I will conclude with this since my time is 
expired--I appreciate your--I think it was your words--this is 
a willful denial of objective reality. If it is okay, I will 
tweet that out a little bit later. With that, I yield back. 
Thank you.
    Chairman McCaul. The Chairman recognizes Mr. Richmond.
    Mr. Richmond. First of all, let me thank you, Mr. Chairman, 
for having the hearing. I think this was a very productive 
hearing. Hearing from people who know what they are talking 
about.
    My sense--and why I ran for Congress and why I am here--is 
to try to get to the solutions, and ask anybody who has the 
ability to offer some expertise on trying to figure out an 
answer. Which means simply, know what you know and know what 
you don't know. The things you don't know, ask the people who 
do.
    But while we are here, it just reminds me of the circus 
atmosphere of Congress, and the fact that we don't put on a 
unified front to our enemies. To the extent that we are 
continuously--and even here today, the question was: Can you 
rate the administration's effort against the enemies? As 
opposed to, can you rate our efforts against the enemies, and 
what can we do?
    Mr. Speaker, you were asked a question about the lack of 
flexibility. I think someone else--and I think it was Mr. Mudd, 
who talked about agility for our troops and our strategists and 
what we can do. You can explain it all day, but you can't 
understand it for us. My frustration is the fact that I think 
we are so blind in partisanship that we just won't sit down and 
listen.
    I want to just ask, am I getting the right takeaways? First 
was the agility and flexibility and find out what we have done 
as a Congress to limit the hands of our forces, and clearly 
defining the left and right borders of what we consider 
acceptable behavior, and not going backwards afterwards with 
hearings and hearings and hearings, and wasting resources and 
time.
    Also the fact that drones are very, very productive and it 
causes a certain amount of fear, because it takes away their 
leadership's ability to have time and safe havens to plot out 
what they want to do.
    The other thing we can do is have hearings and do things as 
a Congress to figure out the benefits of the targeted killing 
programs and things of that like to see how effective it was 
and how it would help us here, and then assert our own thing.
    So part of, I guess my question is: Do you think that a 
focused Congress on the issues that we raised here, with the 
ability to hold hearings and other things--and Mr. Speaker, you 
know them better than I, do you think we have the tools to add 
to this fight? The question was whether it's criminals, thugs, 
or a thread of religious tone. Well, it is both--it is criminal 
thugs who are using religion to push their sinister goals, and 
they are winning the propaganda war on the fact that they have 
some good mission behind it.
    So, Mr. Speaker, do we have the tools to do it? If so, 
where do we go from here in your opinion?
    We can take that question and go down the line.
    Mr. Gingrich. Well, let me just say that the founding 
fathers were amazingly wise. They created institutions that 
have enormous capability.
    As early as 1793, 1794, they were debating whether or not 
to complete frigates in order to go and intimidate the Barbary 
pirates. They decided not to because the negotiations were 
going pretty well, and had to go back later and finish them.
    But the Congress has a long history of being involved in 
trying to understand, what are our National security interests 
and what do we need to do about them?
    I would say--the point you have made, which several Members 
have made--if we could get beyond partisanship to have a real 
National security and homeland security debate, and engage the 
entire Congress as General Hayden said, in creating a consensus 
that could last--the Cold War consensus lasted over 40 years, 
because people argued it out, thought it through, and decided, 
you know, it is what we have to do.
    We need a similar dialogue, and it needs to transcend 
Democrat, Republican, and be an American dialogue.
    General Hayden. I second that Congressman. When I was 
director at the CIA, we consciously made a decision not to do 
some things that frankly were--we believe were legal, maybe 
even somewhat effective, in order to build the kind of 
political consensus that the Speaker just described.
    In other words, I would even be willing to perhaps not be 
as bold as I would otherwise be in order not to face an on/off 
switch every 24 months.
    Mr. Mudd. Just one quick comment on this. One of the things 
I worried about most when I was in the service wasn't just the 
adversary. It related to American citizens, and that is there 
have been debates over the past several years about how we look 
at American citizens, in particular how we look at their 
digital trail.
    I would encourage you again bipartisan to make sure you 
clearly understand what you have asked particularly the FBI to 
do with data and what limitations that provides them. Data is 
moving so fast; how much digital trail each American gives. I 
was always concerned we are over-collecting; we are under-
collecting; we are on the wrong person; we are using the wrong 
criteria. I know it sounds like a technical issue. It is 
fundamental to the hunt for unknowns in the United States.
    How much latitude do you want to give Federal agencies to 
chase Americans' data? How can they collect it and how can they 
analyze it, and make sure you distinguish between the two, 
fundamental difference. It is okay, in my opinion, if you 
collect it; I want to know how you are going to use it; very 
different from an analyst perspective.
    Chairman McCaul. The gentleman's time has expired.
    Mr. Richmond. Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The Chairman recognizes the ever-patient 
Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you panel. I really appreciate all your perspectives 
today. I agree with a lot of what was said today. Some of my 
perspectives are formed from 26 years in the military. My last 
assignment, running counter-terrorism operations for AFRICOM 
and the tremendous frustrations that we experienced as we 
watched some of these threats that have been going on for 
decades, but are continuing to grow and metastasize in their 
capabilities, both al-Shabaab, AQAP across the way, Boko Haram, 
AQIM and us not declaratively stating that this is in our 
National interests to address these threats.
    They are growing these safe havens. We could have done some 
things to address them, and now all of a sudden they are--you 
know, they are rearing their ugly heads, but we have watched it 
grow, and we have done nothing about it.
    So ISIS is the latest, but these extremists organizations 
have been growing and metastasizing for a long time, so I 
appreciate everybody's perspectives on that.
    Also a tremendous fan of drones. As a person who is a 
pilot, that sounds funny that I would be supporting unmanned, 
or un-womanned, aircraft, but I testified before the Senate 
last year on that.
    Look, if we decide that it is legal to use lethal force and 
we decide it is good policy, that provides us persistence and 
tremendous oversight to be able to use those assets, so I 
agree. So thanks for talking about that.
    I have a question, sort of the big picture. Speaker 
Gingrich, I would appreciate your perspectives on this first, 
is it seems like right now we are doing the second-graders with 
the soccer ball--we are addressing ISIS. Oh my gosh, we have 
got to deal with it. We will do whatever it takes to try to and 
address that, to include tolerating Soleimani leading the 
effort to also tolerate that it really emboldened Assad, that 
Iran's, you know, hand is strengthening in the region, and it 
just seems like we are looking very tactically at this threat 
instead of strategically.
    As we look at strengthening Iran's hand as the largest 
state sponsor of terror as an unintended consequence, that is 
very concerning to me in their capabilities march, you know, of 
militant Islam.
    I do agree with Prime Minister Netanyahu, who said, in this 
case, the enemy of our enemy is our enemy, and not our friend. 
It seems like people are looking at it like it is a seesaw, 
like either we are going to deal with ISIS, and therefore we 
are strengthening Assad and Iran, or the other way around, like 
it is one or the other.
    Is there a strategic framework where we could be addressing 
both of those threats? Because obviously our Sunni allies in 
the region are on the sidelines because of this dynamic, and 
that is part of why they are not participating fully. So how do 
we strategically address both of those threats? What would we 
do differently, Speaker Gingrich?
    Mr. Gingrich. Well, first of all we are missing two key 
ingredients that we had in the late 1940s. George Kennan wrote 
what was called ``the long telegram'' in 1946 which explained 
that the Soviet Union was a world-wide competitor and that we 
had to collide with it and had no choice.
    That changed Washington's view dramatically. In 1950, NSC 
finished writing NSC-68 which really set the framework for the 
entire Cold War and was a very long-range document.
    So I would say we currently don't have either of those, and 
that--I want to say, I think this has been a bipartisan 
problem. I think that what happened is we got sucked into 
tactical decisions and at best operational decisions, we had 
very little strategic thinking and very little strategic 
decision making for a very human reason.
    If you really look at this--and I had this experience, I 
was at the agency in December 2001. The counterterrorism guys 
were giving me a briefing. They said--I said, what is your 
target set? They said, about 5,000 people.
    I said, what is the recruiting base? They said, oh, 3 to 5 
percent of Islam. So I said, wait a second, that is 39 million 
to 65 million people. They nodded at me. They said, yes, that 
is right.
    I said--and they said, we can't get the White House to 
understand this isn't about 5,000 people. So I took one page. I 
had a really big circle that had 39-65 million, and then a 
really tiny circle that said 5,000.
    I went and I saw Rice and Cheney and Rumsfeld, and I said, 
this is the moment in ``Jaws'' where the police chief says ``we 
need a bigger boat.''
    Now the fact is the boat we need is so big, and it has 
taken us a decade more to begin to realize it, this ain't going 
away. This is going to get worse. Now I think we are on the 
edge of being able to have a genuine bipartisan debate that 
really transcends just fighting over the President, and gets 
into the question, given that this is true, what do we need to 
do about it?
    Until we have that debate, and understand, Iran is our 
mortal enemy.
    Ms. McSally. Right.
    Mr. Gingrich. Radical Sunni behavior is our mortal enemy. 
These are not marginal enemies. These are mortal enemies 
comparable to Nazi Germany and the Soviet Union.
    Until we are prepared to deal with them at that level and 
understand that it is a world-wide epidemiology problem, 
particularly on the Sunni side, and it is a very specific state 
problem on the Iranian side, people don't want to think like 
that because it leads you to make decisions that are too 
frightening.
    Ms. McSally. Great. Thanks.
    General Hayden, any insights?
    General Hayden. Yes. Congresswoman, your story about 
chasing the rabbit in Africom brings a thought to mind. You 
have got these franchises popping up. I always pictured them to 
be very difficult decisions.
    Like let's take Boko Haram, all right? It doesn't appear to 
be an enemy of the United States. They are not killing our 
people. They are not threatening to kill our people. Do I 
really want to put an American face on suppressing Boko Haram 
and thereby accelerate or even create something that would not 
have existed in terms of a threat?
    The longer I look at this, though, the more I see the 
connective tissue between these different groups. This is more 
in the form of a question. I have not yet arrived at an answer.
    But if it is right that the connective tissue is stronger 
than we have seen, that they are part of a globalized movement 
that the Speaker has described, that changes your--the 
character of your decision making over here as to how quickly 
you want to put an American face on going after some of these 
movements.
    Ms. McSally. Exactly. Great. Thank you.
    My time has expired, I appreciate it. I yield back. Thank 
you, Mr. Chairman.
    Chairman McCaul. Thank you.
    Let me thank the witnesses. I just want to close with, you 
know, my father was a bombardier on a B-17 in the European 
theater. They were all-in to win. We defeated fascism.
    The long-term struggle against communism that, Mr. Speaker, 
as you mentioned, we had a plan laid out and a strategy to 
defeat communism. We won.
    Now we face Islamist extremism. It will be a long-term 
ideological struggle. But I do think in the end we win this one 
as well.
    I also finally want to thank the Speaker who had something 
to do with this hearing. I read his opinion piece and was 
inspired to put this hearing together because I think it is 
important that Congress has a role, an oversight role, and a 
role to have hearings to draw attention to the American people 
on this issue and shape the policies that impact the security 
of the United States.
    So let me thank you for that as well.
    With that, this hearing stands adjourned.
    [Whereupon, at 1:01 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
